<html>
<title> - THE HYDROGRAPHIC SERVICES IMPROVEMENT ACT OF 1998</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
           THE HYDROGRAPHIC SERVICES IMPROVEMENT ACT OF 1998
=======================================================================


                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                           September 13, 2001
                               __________

                           Serial No. 107-60
                               __________

           Printed for the use of the Committee on Resources







 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov





                    U.S. GOVERNMENT PRINTING OFFICE
75-129                       WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                













                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 13, 2001...............................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Underwood, Hon. Robert A., a Delegate to Congress from Guam..     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Allen, Kurt W., on behalf of the Management Association for 
      Private Photogrammetric Surveyors (MAPPS)..................    43
        Prepared statement of....................................    44
    Brohl, Helen A., President, National Association of Maritime 
      Organizations..............................................    36
        Prepared statement of....................................    39
    Gudes, Scott B., Acting Under Secretary for Oceans and 
      Atmosphere, National Oceanic and Atmospheric Administration    11
        Prepared statement of....................................    14
    Hamons, Frank, Manager, Harbor Development, Maryland Port 
      Administration, and Chairman, Harbors, Navigation and the 
      Environment Committee, American Association of Port 
      Authorities................................................    46
        Prepared statement of....................................    49
    High, Jeffrey P., Director, Waterways Management, U.S. Coast 
      Guard, Department of Transportation........................     4
        Prepared statement of....................................     6
    Watson, Captain Michael R., President, American Pilots' 
      Association................................................    52
        Prepared statement of....................................    55

Additional materials supplied:
    Saade, Edward J., Vice President and General Manager, Thales 
      Geosolutions (Pacific) Inc., Statement submitted for the 
      record.....................................................    63













OVERSIGHT HEARING ON THE HYDROGRAPHIC SERVICES IMPROVEMENT ACT OF 1998, 
               AND OTHER NATIONAL OCEAN SERVICE PROGRAMS

                              ----------                              

                      Thursday, September 13, 2001

                     U.S. House of Representatives
       Subcommittee on Fisheries Conservation, Wildlife and Oceans
                         Committee on Resources
                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m., in Room 
1324, Longworth House Office Building, Hon. Wayne T. Gilchrest 
[Chairman of the Subcommittee] presiding.

    STATEMENT OF THE HONORABLE WAYNE GILCHREST, A MEMBER OF 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The hearing will come to order. I thank you 
for your indulgence and your patience, the witnesses and those 
attending the hearing and Mr. Underwood and his staff and my 
staff.
    Today the Subcommittee will be hearing testimony on the 
reauthorization of the Hydrographic Services Improvement Act of 
1998.
    As the former Chairman of the Coast Guard Subcommittee, I 
am particularly interested in hearing about NOAA's updated 
navigation program and how it fits into the broader 
transportation, marine transportation system initiative. 
Congress enacted the Hydrographic Services Improvement Act to 
help provide the National Oceanic and Atmospheric 
Administration with a framework for the modernization of the 
United States nautical charting, tide and current and geodetic 
programs.
    Since the Act became law, significant progress has been 
made modernizing those programs largely through Congressional 
additions to NOAA's budget request. Despite the progress that 
has been made, much work remains to be done, and it is of great 
concern to the Subcommittee that NOAA has still not been able 
to put together a long term for maintaining its hydrographic 
expertise.
    The agency was taxed to prepare such a plan in 1998. Nearly 
2 years after the statutory deadline has passed and after 
repeated assurances from the agency that the plan was nearly 
complete, the agency submitted a list of potential options 
rather than a plan that chose between options. The Subcommittee 
had long been aware of potential options and a further 
recitation of those options was not productive or helpful.
    I look forward to NOAA to ultimately produce an acceptable 
long-range plan. 98 percent of the cargo in the United States 
international trade moves by water. Without up-to-date 
navigation services, the trade is neither safe nor as effective 
as it could be. Therefore I look forward to hearing our 
witnesses explain this morning what improvements are needed to 
that navigation services, and how to achieve those 
improvements.
    In light of the events over the last couple of days, we 
were debating whether or not to continue this hearing. But we 
felt as many do here, that we as the Congress and the 
government need to continue to pursue the great ocean of work 
that keeps this company secure, vital, functioning and 
operating. We also feel that this particular hearing and this 
particular issue is also vital to the Nation's interests and 
the Nation's security. But I also know all of you here feel, 
under the circumstances, a great, sometimes incomprehensible 
sadness, a sense of powerful resolve and a sense that America, 
in its relationship with the rest of the world, has come to a 
new beginning. It's more than Pearl Harbor. It is more than a 
civil war. This is a completely new era that now we must take 
responsibility for, be competent, intelligent, calm, 
systematic, because what we do now will be of tremendous impact 
to the next generation, for them, instead of picking up pieces, 
to be ready to accept the torch from one generation to the 
next.
    So as we move through this hearing and the coming days, we 
will stick together, be patient, clear-headed, intelligent to 
work with the international community. And it is my 
understanding that if we do that, and responsible adults across 
this entire globe, we can, in fact, rid the world of this 
terrible scourge.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of the Honorable Wayne T. Gilchrest, Chairman, Subcommittee 
             on Fisheries Conservation, Wildlife and Oceans

    Today the Subcommittee will be hearing testimony on the 
reauthorization of the Hydrographic Services Improvement Act of 1998. 
As the former Chairman of the Coast Guard Subcommittee, I am 
particularly interested in hearing about how NOAA's updated navigation 
services program fits into the broader Marine Transportation System 
initiative.
    Congress enacted the Hydrographic Services Improvement Act to help 
provide the National Oceanic and Atmospheric Administration (NOAA) with 
a framework for the modernization of the United States nautical 
charting, tide and current and geodetic programs. Since the Act became 
law, significant progress has been made modernizing those programs 
largely through Congressional additions to NOAA's budget request.
    Despite the progress that has been made, much work remains to be 
done, and it is of great concern to the Subcommittee that NOAA has 
still not been able to put together a long term plan for maintaining 
its hydrographic expertise. The agency was tasked to prepare such a 
plan in the 1998 Act. Nearly two years after the statutory deadline had 
passed, and after repeated assurances from the agency that plan was 
nearly complete, the agency submitted a list of potential options 
rather than a plan that chose between options. The Subcommittee had 
long been aware of the potential options and a further recitation of 
those options was not productive or helpful. I look forward to NOAA 
ultimately producing an acceptable long range plan.
    Ninety-eight percent of the cargo in the United States 
international trade moves by water. Without up-to-date navigation 
services, that trade is neither as safe nor as effective as it could 
be. Therefore, I look forward to hearing our witnesses explain this 
morning, what improvements are still needed to the our navigation 
services programs, and how to achieve those improvements.
                                 ______
                                 
    Mr. Gilchrest. I now would like to yield to the gentleman 
from Guam, Mr. Underwood.

  STATEMENT OF THE HONORABLE ROBERT UNDERWOOD, A DELEGATE TO 
                       CONGRESS FROM GUAM

    Mr. Underwood. Thank you, Mr. Chairman. And of course, I 
fully endorse the remarks you have just made about the current 
situation that we are now confronted with as a Nation. Yet, and 
as we are mindful of the situation that we are in and as we 
carve out our national project on how to deal with this 
condition, one of the ways that we defeat terrorism and the 
effects of their activities is to get back to normal as quickly 
as possible.
    And so it is important that we have this hearing and that 
we continue to address issues that are significant to our lives 
as quickly and as normally as possible. And so I thank you for 
holding this hearing at this time. Thank you, Mr. Chairman.
    And the National Oceanic and Atmospheric Administration has 
few roles more important than the one we are here to discuss 
today. Hydrographic surveying is an essential element of water-
borne trade. The National Ocean Service, part of NOAA and 
predecessor, the Coast Survey, have had responsibility for 
maintaining hydrographic data since 1807, that is, since 
practically the founding of the republic. Hydrographic 
surveying has been recognized as an integral part of the duties 
of government and is one of the oldest government functions.
    As we all know, ships are not cheap to operate. 
Hydrographic data is not cheap to gather, nor is it simple to 
process this data and create usable accurate nautical charts. 
But this is what NOAA is statutorily required to do, and it is 
Congress's job to support NOAA and provide it with the 
resources to fulfill its hydrographic obligations. NOAA must 
maintain an in-house hydrographic capability and the expertise 
necessary to carry out this mandate. I can sympathize with the 
quandary NOAA finds itself in, a huge backlog of ocean areas 
that need to be surveyed and a limited budget.
    Long-term planning by NOAA is also hindered by the 
uncertainty of future appropriations. But I have to ask the 
question, why has NOAA not asked for more money for ship 
surveying operations, either in-house or otherwise? NOAA has 
requested just over $20 million for these activities in fiscal 
year 2002. Yet according to the Marine Navigation Safety 
Coalition, NOAA should be requesting closer to $80 million to 
address the surveying backlog and various other related 
projects, nearly four times the amount requested by NOAA.
    A balance must be reached, and as I am sure that we will 
hear today between NOAA's in-house capabilities and private 
survey capabilities, the need to rapidly address the most 
pressing survey data deficiencies must be balanced with the 
need to produce and provide the most accurate data and 
hydrographic products possible. I was very glad to see the 
report that NOAA finally produced on maintaining Federal 
expertise and capability in hydrography. Within the report, 
several options are given as to how NOAA can fulfill its 
mandate in the future. No one option was selected as the final 
answer to all hydrographic surveying problems. But a general 
plan of action was given in the conclusion. I am very 
interested in carrying on a discussion on how this general plan 
will be turned into specifics so that our surveying backlog can 
be addressed and remedied through the most thorough and 
efficient methods possible.
    Thank you, again, Mr. Chairman, for holding this hearing on 
an issue so critical to safe marine commerce and transportation 
and to the economic and social well-being of millions of 
Americans. Thank you.
    [The prepared statement of Mr. Underwood follows:]

  Statement of the Honorable Robert Underwood, A Delegate to Congress 
                               from Guam

    Thank you, Mr. Chairman. The National Oceanic and Atmospheric 
Administration has few roles more important than the one we are here to 
discuss today. Hydrographic surveying is an essential element of 
waterborne trade. The National Ocean Service, part of NOAA, and its 
predecessor, the Coast Survey, have had responsibility for maintaining 
hydrographic data since 1807. That is, since practically the founding 
of this nation, hydrographic surveying has been recognized as an 
integral part of the duties of the government, and is one of the oldest 
government functions.
    As we all know, ships are not cheap to operate. Hydrographic data 
is not cheap to gather; nor is it simple to process this data and 
create useable, accurate nautical charts. But this is what NOAA is 
statutorily required to do, and it is Congress's job to support NOAA 
and provide it with the resources to fulfill its hydrographic 
obligations. NOAA must maintain an in-house hydrographic capability and 
the expertise necessary to carry out this mandate.
    I can sympathize with the quandary NOAA finds itself in - a huge 
backlog of ocean areas that need to be surveyed and a limited budget. 
Long-term planning by NOAA is also hindered by the uncertainty of 
future appropriations. But I have to ask the question: Why has NOAA not 
asked for more money for ship surveying operations, either in-house or 
otherwise? NOAA has requested just over $20 million for these 
activities in Fiscal Year 2002. Yet according to the Marine Navigation 
Safety Coalition, NOAA should be requesting closer to $80 million to 
address the surveying backlog and various other related projects - 4 
times the amount requested by NOAA.
    A balance must be reached, as I am sure we will hear today, between 
NOAA's in-house abilities and private survey capabilities. The need to 
rapidly address the most pressing survey data deficiencies must be 
balanced with the need to produce and provide the most accurate data 
and hydrographic products possible.
    I was very glad to see the report that NOAA finally produced on 
``Maintaining Federal Expertise and Capability in Hydrography.'' Within 
the report several options are given as to how NOAA can fulfill its 
mandate in the future. No one option was chosen as the final answer to 
all the hydrographic surveying problems, but a general plan of action 
was given in the conclusion. I am very interested in carrying on a 
discussion on how this general plan will be turned into specifics so 
that our surveying backlog can be addressed and remedied through the 
most thorough and efficient methods possible.
    Thank you again, Mr. Chairman, for holding this hearing on an issue 
so critical to safe marine commerce and transportation, and to the 
economic and social well-being of millions of Americans.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Underwood.
    Mr. Gilchrest. I understand, Mr. High, you have to leave 
fairly soon.
    Mr. High. Yes, sir.
    Mr. Gilchrest. So you may go first, sir.

STATEMENT OF JEFF HIGH, DIRECTOR, WATERWAYS MANAGEMENT, UNITED 
                       STATES COAST GUARD

    Mr. High. Thank you, Mr. Chairman, for the opportunity, Mr. 
Underwood, for the opportunity to speak here on NOAA's 
Hydrographic Services program and how it fits into the MTS, the 
Marine Transportation System, and to let you know how NOAA's 
services are important to the Coast Guard and the Nation.
    First, Mr. Chairman, I was with Admiral Loy this morning 
dealing with the terrorist incident issues and he sends his 
regards and his regrets that he couldn't be here personally. I 
also want to thank you for your leadership in recognizing the 
importance of the MTS, and of course, I am referring 
specifically to the first hearing on MTS, I believe, in 
Congress that you held as the Chairman of the Coast Guard 
Subcommittee about 3 years ago. And of course it was your 
Committee that directed the Secretary of Transportation to 
establish a task force to assess the adequacy of our MTS. And 
that resulted in the report to Congress of September 1999.
    Mr. Chairman, I would like to submit my written testimony 
for the record, if I may. But I would like to just highlight a 
couple of points. First, on NOAA as a service provider, as an 
interagency partner and as a steward of the environment. And I 
would like to frame those in the context of the Marine 
Transportation System. The Coast Guard and NOAA have enjoyed a 
longstanding partnership that includes the exchange of 
navigation and environmental information and services. NOAA's 
navigation products have always been essential to the execution 
of Coast Guard missions, such as search and rescue and oil 
spill recovery. We also share the critically important goal of 
navigation safety. Safe navigation mitigates the loss of life 
and property and promotes a cleaner environment. It also 
supports the uninterrupted transport by water of the consumer 
goods that the Americans use in their daily life.
    As I know Mr. Gudes will say, because I read his testimony 
the demand for commercial use of our ports and waterways 
continues to grow, fueled by increases in world trade. 
Competition between commercial and recreational users for water 
space is also increased. The types of vessels that call on our 
ports are changing. We are seeing larger freight ships. We are 
seeing higher speed ferries, as well as high speed personal 
watercraft. All of these changes are challenges to the safe and 
efficient flow of marine traffic. Mr. Chairman, today's 
mariners and the time sensitive operating practices of modern 
shipping require timely and accurate information from and about 
the operating environment. Meeting these demands requires 
precision navigation services and system, reliable hydrographic 
surveys and real time information on weather, water levels and 
maneuvering clearances, all services that NOAA provides under 
the Hydrographic Services Improvement Act.
    The Coast Guard is a direct partner with NOAA in the 
production and delivery of safe navigation. I would like to 
just mention a couple of activities. Since the earliest days of 
the Republic, buoys and lighthouses have contributed to the 
safety of navigation. Although sophisticated electronic 
navigation systems have been introduced in recent years, 
physical aids remain critical to managing transit risk. The 
Coast Guard must continue to deliver this important service. I 
mean, we must continue to partner with NOAA to provide it at 
the highest levels of quality and reliability. Hydrographic 
survey data is linked, and with our aid, to navigation data on 
navigation charts. Both data sets are essential to safe 
navigation.
    The Coast Guard and NOAA are also part of an interagency 
Committee that is managing the evolution of electronic 
navigation technology. Electronic navigational chart, ENC-based 
systems, can improve safety in waterways because they present 
mariners with real time information. The Coast Guard and NOAA 
have entered into a formal agreement to support production of 
ENCs. The sooner we update the electronic navigational charts 
and they can be delivered, the sooner we will benefit from the 
safety advantage that they bring.
    The Coast Guard agrees that NOAA needs to accelerate the 
production of electronic navigational charts and needs the 
resources to do so. Automatic identification systems is a new 
tool that has tremendous possibilities for managing risk. A 
vessel's AIS consist of a transponder that continuously 
broadcasts pertinent navigational data, including vessel 
documentation, position, course speed and cargo type. AIS is 
dependent on the availability of precise navigation systems 
that accurately depict the ship's operating environment.
    AIS can also deliver highly accurate information from other 
sources such as the weather and hydrographic information 
provided by NOAA's PORTS system. The Coast Guard and NOAA have 
continued to cooperate on the installation and operation of 
PORTS in some of our Nation's busiest waterways. Mariner 
reliance on the system is increasing. The Coast Guard strongly 
supports the expansion of the system and NOAA's continued roll 
in the quality control oversight.
    In summary, Mr. Chairman the Marine Transportation System 
provides a structure for all MTS users and stakeholders to work 
together. The Coast Guard believes that we have no better 
partner in the MTS effort than NOAA. NOAA is fully engaged in 
forward thinking, has the best interest of the mariners and the 
environment in mind at all times, and is a tremendous team 
player.
    You, sir and the American public should be proud of the way 
NOAA provides its many valuable services to the Nation. The 
Coast Guard, of course, also has a very significant role in 
insuring port safety and efficient marine transportation. But 
we know that our ability to meet our responsibilities is highly 
dependent upon the ability of our Federal partners, and in 
particular, NOAA, to accomplish their mission.
    Thank you, Mr. Chairman, for the opportunity to discuss 
this important issue today and I will be happy to answer 
questions.
    [The prepared statement of Mr. High follows:]

 Statement of Jeffrey P. High, Director of Waterways Management, U.S. 
                              Coast Guard

    Thank you, Mr. Chairman and distinguished members of the 
Subcommittee for the opportunity to appear before you today to testify 
on how NOAA's hydrographic services program fits into the larger Marine 
Transportation System initiative and let you know how important 
modernization of the Federal government's navigation services program 
is to the Coast Guard and to the nation.
    I also want to thank you, Mr. Chairman, for your continuing 
leadership in recognizing the importance of the Marine Transportation 
System not only today, but in earlier hearings you held. We also 
appreciate your role in directing the Secretary of Transportation to 
establish a Task Force to assess the adequacy of the nation's marine 
transportation system to operate in a safe, efficient, secure, and 
environmentally responsible manner. This mandate, which was part of the 
Coast Guard Authorization Act for fiscal year 1998, resulted in the 
September 1999 Report to Congress An Assessment of the U.S. Marine 
Transportation System, which Mr. Gudes mentioned in his remarks.
    The Marine Transportation System Initiative is the basis for many 
interagency efforts. This is particularly evident in the Coast Guard's 
working relationship with NOAA. The Coast Guard's long established 
partnership with NOAA includes the exchange of navigation and 
environmental information and services that are used every day in the 
marine industry and in the course of Coast Guard operations. NOAA's 
navigation products have always been essential to the execution of 
Coast Guard missions such as search and rescue and oil spill recovery. 
Of critical importance to the Coast Guard is our mutual goal of 
navigation safety for boating and commercial shipping, a goal that is 
also shared by the marine industry, marine transportation system 
stakeholders, and other Federal and State government agencies who use, 
or share responsibility for some aspect of the marine transportation 
system. Safer navigation not only mitigates the loss of life and 
property and promotes a cleaner environment, but also supports the 
uninterrupted transport by water of the consumer goods that American's 
use in their daily lives.
    The demand for commercial use of our ports and waterways continues 
to grow, fueled by increases in world trade and domestic use of the 
waterways to transport goods and people. Competition between commercial 
and recreational users for water space is also increasing. The types of 
vessels that call on our ports are changing. We are seeing larger 
freight ships and higher speed ferries, and high-speed personal 
watercraft that swell the recreational boating population. Increased 
use, coupled with increased speed and size, narrows the acceptable risk 
margin associated with marine transportation.
    What are the gaps and how should we close them? Professional 
mariners require timely and accurate information about their operating 
environment. The time-sensitive operating practices of modern shipping 
require unrestricted access to the waterway and confidence in the 
channel dimensions and the depiction of those dimensions. Meeting these 
demands requires precision navigation services and systems, reliable 
hydrographic surveys, and real time information on weather, water 
levels, and maneuvering clearances, all services that NOAA provides 
under the Hydrographic Services Improvement Act. These services are 
critical to achieving the vision of a U.S. Marine Transportation System 
that will be the world's most technologically advanced, safe, secure, 
efficient, effective, accessible, globally competitive, dynamic and 
environmentally responsible system for moving goods and people.
    The tools we use to do our business have changed. Safety 
initiatives now involve information systems and position fixing systems 
to display cartographic, navigational, and environmental information in 
near real time. Navigational charts are dynamic, and require frequent 
updating in response to shoaling, dredging, construction and the 
related changes to buoys and other aids to navigation. The Coast Guard, 
NOAA, National Imagery and Mapping Agency and the U.S. Army Corps of 
Engineers each have data critical to the safety of navigation. The 
Coast Guard is a direct partner with NOAA in the production and 
delivery of navigation products. Some of these activities include:
    <bullet> LSince the earliest days of the Republic, buoys and 
lighthouses have contributed to the safety of navigation. Although 
sophisticated electronic navigation systems have been introduced in 
recent years, physical aids remain critical to managing transit risk. 
The Coast Guard must continue to deliver this important service, and we 
must provide it at the highest levels of quality and reliability. We 
must also continue to cooperate with our colleagues at NOAA and the 
National Ocean Service to ensure that information on our constellation 
of short range aids to navigation is accurately presented to the 
mariner. Hydrographic survey data is linked with aids to navigation 
data on navigation charts. Both data sets are essential to safe 
navigation. An interagency information technology solution is needed to 
ensure the seamless exchange and management of the data required to 
produce navigation information products. The Coast Guard and NOAA are 
part of an interagency committee that is managing the evolution of 
electronic navigation technology. Several work groups are looking 
specifically at the digital data exchange question. Resolving 
electronic chart data issues in an important joint project that has 
international and industry implications.
    <bullet> LTechnology has been used to reduce the staffing of 
vessels to make marine transportation economically feasible for a wide 
range of industry practices - including ferry and cargo operations. 
Electronic Navigational Chart (ENC) data is the core element of a 
modern integrated navigation information system. ENC based systems can 
improve safety in waterways because they present mariners with real-
time information quickly and with minimal effort. An accurate, timely 
position based on Differential Global Positioning System (GPS) 
information, when presented on an electronic chart, provides mariners 
with the positioning accuracy they need to support navigation 
decisions. The Coast Guard and NOAA have entered into a formal 
agreement with respect to data sharing to support production of ENCs. 
The faster updated electronic navigational charts can be delivered to 
the mariner, the faster we can benefit from the safety advantage they 
bring. The Coast Guard agrees with NOAA that we need to accelerate the 
production of electronic navigation charts and will continue to work 
closely with them to speed this delivery.
    <bullet> LAutomatic Identification Systems (AIS) is a new 
communication tool that has tremendous possibilities for managing risks 
associated with marine transportation. A vessel's AIS consists of a 
transponder that continuously broadcasts pertinent navigation data, 
including vessel identification, position, course, speed, and cargo 
type. However, AIS is dependent on the availability of precise 
navigation systems that accurately depict the ship's operating 
environment. Continued support of the Differential GPS network and the 
rapid delivery of accurate electronic navigational charts are essential 
to the success of AIS.
    <bullet> LAIS can also deliver highly accurate information from 
many sources, such as the weather and hydrographic information provided 
by NOAA's Physical Oceanographic Real Time System (PORTS). The Coast 
Guard and NOAA have continued to cooperate on the installation and 
operation of PORTS in some of our nation's busiest waterways. Mariner 
reliance on the system is increasing. The Coast Guard strongly supports 
the expansion of the system and NOAA's quality control oversight of 
PORTS.
Summary
    The Marine Transportation System Initiative provides a structure 
for all MTS users and stakeholders to work together to ensure that the 
system will be safe, secure, efficient, and environmentally responsible 
for the full range of users in light of the projected increase in 
demand. Initiatives that contribute to port and marine transportation 
safety are in the national interest and the services that NOAA provides 
are critical. The Coast Guard is committed to ensuring that vessel 
traffic will continue to move on the Nation's waterways safely and 
efficiently, including the Great Lakes-St. Lawrence Seaway in 
coordination with the Saint Lawrence Seaway Development Corporation. 
Modernization of the Federal government's navigation service program, 
in particular NOAA's navigation products is essential to meeting that 
objective. Although the Coast Guard has a significant role in ensuring 
port safety and efficient marine transportation, our ability to meet 
these responsibilities is dependent upon the ability of our Federal 
partners to accomplish their missions.
    Thank you for the opportunity to discuss this important issue 
today. I will be happy to answer any questions you may have.
                                 ______
                                 
    Mr. Gilchrest. And I think we will probably go to questions 
to you now, Mr. High. Would you say that the hydrographic 
services we now have in our present Marine Transportation 
System are adequate?
    Mr. High. No, sir. I believe that there is room for 
improvement. I think that we have databases on charting that 
need to be updated. I think we can do more on the way of 
electronic charts that we are working on. I think we can 
improve our situation tremendously. There is lots of technology 
that is available to us. We are working toward that end, but I 
would say that we can make some improvement, sir.
    Mr. Gilchrest. Of the options that NOAA has proposed, does 
the Coast Guard have any one of those options, in particular, 
that they feel would be the best likely way to proceed?
    Mr. High. I'm not sure how to answer that question, sir. I 
think we need a package of information. We need better data for 
our ports, things that have been not updated for 50 years. We 
need to know what is there. We really like the PORTS system, 
the Physical Oceanographic Real Time System. And we can see 
that tying into our AIS. The mariners are calling for that kind 
of thing. Electronic charts are very important to us. For our 
AIS technology we need to rely upon electronic charts.
    So I would say we need the whole package, sir. I would 
leave it to NOAA and your thinking on what the priorities might 
be.
    Mr. Gilchrest. Mr. High, you said that you have long been 
in the partnership with NOAA. Could you explain the aspect of 
that partnership that deals with Hydrographic Services, and do 
you work closely with NOAA, and have you, in the last several 
years, as we are, trying to make improvements in this area of 
marine transportation?
    Mr. High. Well, sir, I--let me say that I am not the 
personal expert on that answer, so I can get you something for 
the record if you would like. But my understanding is that we 
have been working with NOAA for many years. I mean, we are--our 
history goes back as far as NOAA does. We have been working 
most recently closely on electronic charting. Our Hydrographic 
Services issues our PORT system under keel clearance data. We 
are interested in all of the services on tides and depth of 
channels that provide to ourselves and the Corps of Engineers. 
And I guess I probably best give you a better answer for the 
record, if I may.
    Mr. Gilchrest. One last question, Mr. High. In your 
opinion, the state of the Hydrographic Services that we now 
have fall somewhat short of what the Coast Guard's perspective 
would be, to meet what you would like to see.
    Now, do you mean that we have available technology that we 
haven't incorporated into the process? We need to--by that I 
mean, is it the Coast Guard's perspective that we do have 
available technology, but it has not been implemented for 
whatever reason? Maybe the reason is budgetary. Maybe the 
reason is a conclusion as to how best to improve the available 
service through available technology. Is that the reason?
    Mr. High. Well, sir, I think we have--there is a couple of 
issues on technology. One is the use of instruments aboard 
vessels and that technology is always proceeding the standards 
that you would have to set for electronic charts. For example, 
we are making some progress on those things and that is work 
that has to be done. I think the issue. My view is the issue is 
the priority and the amount of resources that go into using the 
technology that we have today to do the surveys that we need to 
do and to put these systems in place. I believe it is a 
priority and a resource issue primarily.
    Mr. Gilchrest. Thank you very much.
    Mr. High. Yes, sir.
    Mr. Gilchrest. Mr. Underwood.
    Mr. Underwood. Mr. High, can you explain some of the 
problems, if there are any, that have been created by 
inadequate hydrographic surveying from the Coast Guard's point 
of view?
    Mr. High. Well, sir, I have gotten some good advice, in 
fact, I was going to say--thank you very much. We have had 
incidents where we have had vessels run aground because they 
have hit obstructions where we weren't aware that they were 
there, and what was whispered in my ear and I am right on was 
the QEII, the Queen Elizabeth II, that ran aground, hit a 
pinnacle that we were not aware was there. That, to me, was an 
inadequate charting of the waters, and that is a function of 
the fact that we can't do them all within the resources that 
NOAA's been given.
    Mr. Underwood. So, maybe--I know the Chairman touched on 
this question a little bit in the Coast Guard's relationship 
with NOAA, on dealing with these particular kinds of issues, is 
the Coast Guard--he asked the question in a way that said, you 
know, are you--have you been working closely with NOAA on this 
particular issue? Let me--I want to ask the same question, but 
I have forgotten your answer on that, so let me try to think of 
a better way of getting you to say--well, are there any areas 
of, perhaps where you have been less than satisfied with, you 
know, we always--the easiest thing to say on any of these 
hearings is that we lack the resources to do everything that we 
want to do. So please give us more resources and there will be 
inevitably a resolution of these and a fulfillment of the needs 
that we have.
    But I guess the question really is, is there any--from the 
Coast Guard's point of view, has there been--given the level of 
resources that we have and that we have expended in the past 
few years, is there a level of satisfaction and trust with what 
is going on with hydrographic charting?
    Mr. High. Well, sir, absolutely. Anything that we get from 
NOAA is absolutely--has the quality control that we expect and 
need and where we have used things. For example, we have 
started an AIS, automatic identification project, in New 
Orleans. We need to have a basis for that. Electronic charts, 
data that we get from NOAA is absolutely trustworthy and that 
is what we need. I guess I understand your point. The resources 
are always the issue. One of the reasons that I think it is 
important that we have looked at the Marine Transportation 
System as a system where we looked at safety, security, 
environment, the competitiveness, infrastructure, we believe 
that perhaps this whole area has been an area that has been 
underinvested. We have put a lot of money into surface 
transportation and other things, and it may be time to look at 
how we are putting the right kind of investment into our Marine 
Transportation System. So again, I am sorry to not give you the 
answer that you are looking for.
    Mr. Underwood. No, I am not trying to--I am not trying to 
identify problems that don't exist. I just want to make sure 
that we fix the response, you know, we adequately understand 
where the problems lie. I mean, if it is a resource issue, then 
it is a resource issue. All right.
    Let me see if I--I know this is probably a question more 
for Mr. Gudes, but I am trying to understand, I know that NOAA 
currently outsources some of the hydrographic surveying, so 
from your--from the Coast Guard experience, is there any 
distinction that you could make in the quality of effort that 
has been--the kind of hydrographic charting that has been given 
to you that has been provided on the basis of in-house 
capabilities or charting that came as a result of outsourcing.
    Mr. High. My understanding is that outsourced data and 
collection is still given quality control review by NOAA, and 
that is what gives us the credibility that we need. So we are 
happy with that product as long as NOAA is standing there with 
it.
    Mr. Underwood. Okay. Thank you very much.
    Mr. Gilchrest. Thank you, Mr. Underwood. And I don't 
think--I don't have any more questions, Mr. High. So if you 
need to excuse yourself, we appreciate your time and effort 
here this morning.
    Mr. High. Thank you Mr. Chairman. I appreciate that 
flexibility. We are working on some issues related to the 
terrorist--.
    Mr. Gilchrest. Keep our Nation's waterways and channels and 
ports secure.
    Mr. High. Yes, sir. That is our intent. Thank you very 
much.
    Mr. Gilchrest. Stay safe in the process.
    Mr. High. Thank you.
    Mr. Gilchrest. You are very welcome, sir.
    Mr. Gudes, thank you for coming this morning.

STATEMENT OF SCOTT GUDES, ACTING UNDER SECRETARY FOR OCEANS AND 
 ATMOSPHERE, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, 
 ACCOMPANIED BY CAPTAIN DAVID MacFARLAND, DIRECTOR, OFFICE OF 
                          COAST SURVEY

    Mr. Gudes. Thank you, Mr. Chairman. Could I just, before 
you start timing, make a comment?
    Mr. Gilchrest. Sure.
    Mr. Gudes. I just wanted to thank Jeff. I think actually 
the relationship between NOAA and the Coast Guard are among the 
closest in government. I think that is partly the nature of how 
the two agencies evolved, 1790 or so for the Coast Guard, 1807 
for NOAA. But if you take a look at the various programs that 
we work in, we provide the search and rescue information that 
goes to the Coast Guard to provide the rescues. We have worked 
together on HAZMAT. We have worked together in plane crashes, 
all sorts of safety for the public, the issues that you raised. 
I just recently was over at the Coast Guard with the commandant 
where he presented Coast Guard medals to several NOAA officials 
who took part in the cleanup of the Galapagos Islands and the 
oil spill, and it really is, I think, quite a very effective 
and good relationship.
    Mr. Gilchrest. Thank you. Proceed.
    Mr. Gudes. First of all, Mr. Chairman, Congressman 
Underwood, let me thank you for holding the hearing. I fully 
agree with your comments. The last few days have been tough for 
everyone, been tough for all NOAA employees. I just learned 
today reading the paper that I knew one of the victims in the 
Pentagon and it has been quite tough. But we do have to 
continue the business of government. We kept people on 
essential services. There could be a hurricane in the Gulf at 
any time or the east coast, and the issue that you are talking 
about today is critically important to national security as 
well, so I want to thank you.
    Let me thank you on behalf of Secretary Evans and the 12-1/
2 thousand men and women in NOAA for holding this hearing and 
talking about our navigation and maritime transportation system 
programs. Let me thank you, Mr. Chairman, Congressman Underwood 
and the staff, John Rayfield, Dave Jansen, Harry Burroughs and 
Sarah Morison and this whole Subcommittee for the leadership 
that it has shown in this area and, I will refer to that 
several times in my testimony.
    Let me also note that I have here today Admiral Fields, the 
head of our office and marine aviation operations, Captain Ted 
Lowelstall and captain Dave MacFarland for the National Ocean 
Service who are sitting right behind me. If you look at the 
first slide, I have provided you with a set of slides. Our 
Nation's maritime transportation, a transportation system, is 
really divided into three legs, if you will, surface 
transportation, or rail and truck and surface, the aviation 
transportation system, which we have talked about so much in 
the last few days.
    But the other part that you are focusing on today, which 
really doesn't, I think, receive enough attention is the 
maritime transportation system and it is probably the least 
visible. It carries 95 percent of U.S. overseas trade by weight 
and 70 percent by value, and it supplies Americans with two-
thirds of all consumer goods that they own. The total volume of 
maritime trade is expected to more than double over the next 20 
years, and the added congestion and the size of the ships and 
the draft they are taking add serious complications for the 
Nation's economy, vessel safety and the environment.
    NOAA has a variety of programs which really support the 
MPS. It is not just the hydrographic that we are talking about 
today, but it is also our weather forecast, our search and 
rescue, our port development habitat restoration and spill 
response. And I think that it is fair to say that MPS is about 
the economy. It is about jobs. It is about the environment. It 
is about safety, and yes, it is about national security. You 
can turn to the next slide, please. The Hydrographic Service 
Improvement Act has helped NOAA make progress in a number of 
areas.
    NOAA is responsible for charting the Nation's exclusive 
economic zone which is greater, the EEZ is greater than the 
whole size of the United States land mass. That is shown up in 
the upper left. In fact, it is the largest EEZ area in the 
world. We prioritized our surveys based on the nature and 
extent of vessel traffic, the age of prior surveys and 
prevalence of shoaling. These areas form the nationally--
navigationally significant areas and critical areas, and with 
your leadership and the Subcommittee's leadership, NOAA has 
modernized some of its survey equipment such as putting in a 
multi beam sonar and increased outsourcing.
    Also, NOAA's backlog of critical areas dropped from 43,000 
square miles in the mid 1990's to about 30,000 square nautical 
miles today. And if you take a look at the lower right-hand 
corner, you will see that showing the State of Florida of that 
is about the size of what we had to work down, and the backlog 
is roughly the size of Florida, and the portion in red shows 
our progress to date in working down that backlog.
    And with the refurbishment of NOAA ship, Fairweather, and 
activation in 2003 and increased outsourcing, we are confident 
we are going to be working down that backlog. If you turn to 
the next slide, we have moved to do business differently. We 
have, after the passage of the Hydrographic Improvement Act and 
work in the mid 1990's and leadership again from Congress, we 
are now contracting out about 50 percent of our survey work and 
developed a much stronger relationship with the private sector.
    This slide shows where we were just a few years ago and 
where we are now. It is a comparison with other countries. It 
shows the size of the EEZ on the left showing the United States 
with the largest EEZ, and it shows what our capabilities are if 
you put both government assets together with private sector 
assets for the total NOAA program. And just a few years ago, 
before the passage of this Act, we were somewhere around 23rd 
or so in the world. That is behind Mozambique. And now if you 
take all the capabilities together, we have about five ships 
and we are about 12th in the world. And we are working to 
become more effective and increase productivity. If you take a 
look at the next slide just real briefly, it sort of makes the 
point that you were just making in your questions that the flip 
side of what I am talking about is there is still a lot of 
areas in this country where we need to do a better job of 
mapping and charting. That is in Togiak Bay, Alaska, that shows 
just a few years ago we had no soundings at all and now in 
working down that backlog has been done. The next slide Mr. 
Chairman shows that we really are looking for three legs, if 
you will, of the stool of trying to work down that backlog and 
get new information.
    First of all, on the left is the NOAA vessels, and as I 
said, we are bringing on a new vessel, thanks to the leadership 
of Congress. On the right are our contract vessels, and on the 
bottom is a new concept, relatively new concept for NOAA, is 
the idea of a time charter or a lease charter, and we have been 
discussing that within the administration. And I know up here 
in Congress there has been an add-on for that area. I should 
note, Mr. Chairman, that some of the questions you were asking, 
in 1998, we spent some $12 million on hydrographic surveys in 
the President's budget.
    And in 2002, the budget before you, the proposal is $33 
million in the President's budget for hydrographic surveys, 
NOAA ship time and private sector ship time. I think that shows 
the sort of change that has taken place in the way that the 
administrations have looked at this function following your 
lead and shows the sort of impact that the Act that you passed 
just a few years ago here in Congress has had on NOAA and on 
our programs.
    If you turn to the next slide, I will run through these 
very briefly. The way of the future is electronic navigational 
charts. These are smart charts if you will. If you will allow 
me, this is a standard NOAA nautical chart. I think it is of 
James river. We produce about 400 thousand of these for the 
private sector per year, or for the public and about 400,000 
for the military. And this is the traditional way of doing 
business. In fact, up through the late 1990's or so, this was 
the only way we did business. This was the product we were 
producing.
    In the late 1990's, we moved to a digitized raster chart 
with a CREDA, cooperative research and development agreement, 
where we digitized those sort of images. You could get 50-
something charts on one CD. I think the last time I testified 
we talked about that. But again, these are non smart charts. 
These are just--the chart that you see is what you see on your 
screen. What we are moving to is electronic navigational 
charts.
    These are charts that have information that are tied to GPS 
that allow the mariner to be safe, to have automatic warnings 
if he goes outside the channel, he or she. The Exxon Valdez, 
this chart shows you that the Exxon Valdez accident likely 
would not have happened had we had electronic navigational 
charts in the bridge of that ship. There would have been 
several times that Captain Hazelwood and his crew would have 
been warned.
    If you just go to the next slide, part of this whole area, 
I think is moving forward into new research and development. As 
I said, we have a lot of backlog, a lot of charting area to do, 
and it requires new technologies and new ideas.
    And one of the real bright spots, I think, in NOAA, and in 
the government the last few years, is the creation of the Joint 
Hydrographic Center at the University of New Hampshire. I was 
just there a few weeks ago. It is staffed, in part, by 
University of New Hampshire professors. We actually have some 
of the best experts in the world. Some of them came from Canada 
to join this institution. We have NOAA and NOAA Corp officers 
going to school there, getting advanced degrees. And it really, 
as you can see from some, the products is producing the next 
generation of technology such as looking at back scatter, the 
return from the sonar equipment to try to characterize the 
bottom. And this is important, not just the hydrography. It is 
important to essential fish habitat. It is important to all 
sorts of areas in NOAA's missions.
    And then finally, just my last slide. I often talk about 
that NOAA is much more than our district employees, whether the 
core officers or men and women serving on the ships or our GS 
civilians. The NOAA team really is a total team and includes 
the private sector. It includes the universities and academia. 
And there are a few images there. And I think that in 
approaching this issue, in understanding and getting to really 
working down that backlog, it is going to take that sort of 
team approach. And that is what we are now doing. Over half the 
surveys we do are done by the private sector. We are working to 
do more of that and we are working to modernize our government 
sector, and as you pointed out, maintain hydrographic 
expertise. So I see the red light. And I have seen it for a 
while, so I will stop.
    [The prepared statement of Mr. Gudes follows:]

  Statement of Scott B. Gudes, Acting Under Secretary for Oceans and 
Atmosphere, National Oceanic and Atmospheric Administration, Department 
                              of Commerce

    Thank you, Mr. Chairman and Members of the Subcommittee, for the 
opportunity to appear before you today to testify on the effectiveness 
of the Hydrographic Services Improvement Act and the navigation 
information services that this Act authorizes. Promoting safe 
navigation for the U.S. Marine Transportation System is one of the 
critical missions provided by the Department of Commerce's National 
Oceanic and Atmospheric Administration. We are very appreciative of 
your continued support and interest in examining the progress we have 
made in modernizing NOAA navigation programs since the enactment of the 
1998 Act. The Department testified before this Subcommittee on this 
subject in 1997, and it was my privilege to testify on NOAA's 
navigation services in 2000. I would now like to update you on some of 
our successes and program issues, and conclude by highlighting some 
changes we would like to see in a new Hydrographic Services Improvement 
Act. In addition, we will provide some preliminary comments on the 
Committee's proposed draft reauthorization measure provided to us with 
the invitation letter for this hearing. The Department of Commerce is 
also preparing a draft legislative proposal for transmittal to the 
Congress. It is our hope that reauthorization will allow NOAA to make 
even greater strides in providing the timely and accurate information 
so necessary for safe and environmentally sound marine transportation, 
efficient maritime commerce and ultimately our Nation's economic 
prosperity in the global marketplace.
The Marine Transportation System Initiative: NOAA's role
    Since our Nation's founding, maritime trade has been vital to 
economic prosperity. Today, more than 95 percent of U.S. foreign trade 
moves by sea. In 1998, about 2.4 billion tons of cargo moved on our 
waterways and through our ports; by 2020, trade is conservatively 
projected to double, with the largest increase seen in container 
shipping. The length, width, and draft of commercial vessels have grown 
dramatically over the last 50 years, pushing the limits of many ports 
and posing significant safety concerns and environmental risk as nearly 
half of all goods transported are oil or other hazardous materials. 
Growth in ferry, cruise line, and recreational boating also contributes 
to increased congestion on our waterways. Ensuring safe and efficient 
port operations is vital to maintaining the competitiveness of the U.S. 
port industry and U.S. exports. One key to reducing risk is to invest 
in the national information infrastructure that supports the maritime 
movement of goods and people.
    In 1998, Congress directed Federal agencies to assess the state of 
the U.S. Marine Transportation System (MTS) and develop a vision for 
modernizing the system. This was a first step toward developing a 21st 
century transportation system that addresses the future of the system's 
safety, security, competitiveness, infrastructure shortages, and 
environmental health. Federal agencies and the private sector have 
partnered to continue to support the MTS initiative by raising 
awareness of MTS issues. In June, NOAA and its partners held the first-
ever national event promoting the MTS on the National Mall.
    NOAA supports the MTS with a variety of navigation and 
environmental services. NOAA's programs authorized by the Coast and 
Geodetic Survey Act of 1947 and the 1998 Hydrographic Services 
Improvement Act--Mapping and Charting, Survey Backlog, Geodesy, and 
Tide and Current Data--form the backbone of the MTS information 
infrastructure. In addition to promoting safe and efficient maritime 
commerce with its navigation services, NOAA issues marine weather 
forecasts, conducts satellite-aided search and rescue tracking with the 
U.S. Coast Guard and other partners, and facilitates sound port 
development. NOAA also supports an environmentally friendly MTS by 
conducting waterway risk assessments to aid port planning, carrying out 
spill preparedness and response activities, and promoting fisheries 
management and habitat restoration. These activities form a 
comprehensive and effective program supporting the future of the MTS.
Modernization of NOAA's Services
    Since President Thomas Jefferson established the Survey of the 
Coast in 1807, mariners have depended on federally-supported nautical 
charts, coastal water level observations systems, and a geodetic 
positioning reference system to navigate safely. NOAA charts are 
developed from NOAA's hydrographic and shoreline surveys, tide and 
current measurements, and national geodetic and geographic positioning 
data, as well as information from many other sources. NOAA continues to 
provide these traditional and fundamental services, but we now seek to 
deliver them in ever more innovative ways to meet user demands for 
accuracy, timeliness and electronic delivery. For example, we have 
recently begun a prototype release of electronic navigational charts 
via the Internet. We are exploring new capabilities for improving the 
accuracy of Global Positioning System technology, and we are adding 
forecasts to our real-time ``nowcasts'' of water levels to increase the 
efficiency of vessel movement and cargo loads. Demonstration projects 
have shown that these programs can provide the accurate data necessary 
for determining precise under-keel and overhead/bridge clearances and 
can support low visibility docking, allowing commercial vessels to 
navigate more safely and to load and move cargo efficiently in and out 
of depth-limited harbors. NOAA's integrated suite of surveying, 
charting, water level, and positioning services is capable of 
increasing the efficient movement of goods, thereby reducing vessel 
fuel consumption and port pollution, supporting just-in-time delivery 
of goods and enhancing the competitiveness of U.S. exports. NOAA's 
navigation services also reduce the risk of marine accidents and 
resulting environmental damage, ensuring that tourism, fishing and 
other ocean- and coastal-dependent industries continue to prosper. If 
accidents do occur, NOAA can provide the necessary support to ensure a 
rapid science-based response and eventual restoration of damaged 
coastal resources.
User communities
    NOAA's navigation services are being utilized by an increasingly 
diverse group of users. In addition to the mariner, other end users of 
NOAA products include port authorities, vessel traffic systems, 
environmental scientists and researchers, emergency planners and 
coastal zone managers. The navigation programs have undertaken a 
deliberate and consistent effort to recognize these new users, to 
solicit all user input and to enlist the support of the private sector 
and academia in data collection, product design and research and 
development. Successes in our efforts to implement digital charting 
databases and develop useful new products could not have been 
accomplished without our private sector and academic partners.
    Another success is NOAA's regional approach to working directly 
with the navigation community. This core group, which includes 
commercial mariners, marine pilots, the Coast Guard and Army Corps of 
Engineers, among others, has fully participated in developing NOAA's 
modernization strategy and prioritization of services. Throughout 
NOAA's navigation services--hydrography, charting, positioning and 
water level data--the basic strategy has been to make investments where 
they will yield the greatest benefit to the public and the mariner. 
Typically this has meant first focusing efforts and implementing 
advanced technologies in and around the Nation's busiest ports and in 
areas where the nature of the cargo or the uncertainty of seafloor 
characteristics present the highest risk of harm or accident. NOAA has 
effectively engaged the navigation community on a regional basis in 
order to track and address critical needs. Recent investments in the 
navigation programs have renewed this user group's confidence that NOAA 
will deliver the accurate and up-to-date products on which safe and 
efficient U.S. marine transportation depends. NOAA's long-standing 
relationships with other maritime interests and organizations, 
including U.S. Power Squadrons and Coast Guard Auxiliaries, are also 
very beneficial. These groups often serve as ``eyes and ears'' for the 
agency regarding significant changes affecting hydrographic services 
and nautical charts on local waters. This volunteer activity provides 
the Nation with a valuable service, one which NOAA would like to see 
reflected in legislation to reauthorize the Hydrographic Services 
Improvement Act. Encouraging and promoting this important cooperative 
charting effort, with NOAA's discretion to accept and define the terms 
of such volunteer activities, would assist the agency tremendously.
Hydrographic Surveying
    Reducing the critical hydrographic survey backlog is one NOAA 
priority that has received significant attention in recent years. 
Responsible for charting the 3.4 million square nautical miles (snm) of 
the U.S. Exclusive Economic Zone (EEZ), NOAA undertook a realistic 
assessment of hydrographic surveying needs and capability in 1994. 
Nearly 500,000 snm of that area--about 15 percent of the EEZ--were 
determined to be navigationally significant due to the greatest threat 
of natural and manmade hazards to marine navigation. Given its limited 
ability to address this huge responsibility, NOAA identified 43,000 
snm--about 1.3 percent of the EEZ--as being the most ``critical'' to 
survey in terms of vessel usage and safety issues. Critical survey 
areas are waterways with high commercial traffic volumes, oil or 
hazardous material transport, compelling requests from users, and 
transiting vessels with low underkeel clearance over the seafloor. Much 
of the survey backlog is in Alaska, where large areas have never been 
surveyed, earthquakes can cause significant change, and high-occupancy 
cruise ships are venturing into the uncharted waters at the feet of 
receding glaciers.
    In 1994, NOAA estimated that it would take 30 years to complete the 
43,000 snm critical survey backlog. When we testified before the 
Subcommittee in 1997, the backlog stood at approximately 39,000 snm. 
Now at the end of Fiscal Year 2001, I am pleased to report that the 
backlog has been reduced to 30,000 snm and the estimate for completion 
at current funding levels is under 20 years and dropping with 
contractor acquisition miles and the anticipated production of the 
refurbished NOAA Ship FAIRWEATHER. NOAA had extremely successful field 
seasons in fiscal year 00 and fiscal year 01, including several notable 
obstruction findings. For example, while investigating a shoal 
bordering the Boston North Channel with side scan and multi-beam sonar, 
the NOAA Ship RUDE located the wreck of a steel barge rising ten feet 
off the seafloor just inside the channel limits. This was an important 
find, as a tanker carrying highly explosive Liquified Natural Gas with 
a vessel draft deeper than the barge was due to transit the channel in 
a matter of days.
    NOAA has not achieved this significant reduction in survey miles 
and time by itself. In 2001, NOAA contracted out over sixty-five 
percent of its surveying resources, and our contractor relationships 
are very strong. The contractors are gaining in experience, and their 
data acquisition miles are increasing. Given the magnitude of survey 
requirements, NOAA promotes using a balanced mix of resources to 
acquire survey data. While operating in-house vessels is necessary to 
maintain the expertise to ensure accurate nautical charts and assume 
responsibility for contract data, utilizing the capabilities that the 
private sector brings to bear on this problem makes good sense. Details 
on our surveying efforts are shown in Table A.
    With a plan in place to successfully address the critical survey 
backlog, NOAA would like to renew its focus on the Nation's other 
navigationally significant areas of responsibility. Critical areas in 
need of periodic re-survey due to naturally occurring changes such as 
silting, storms and earthquakes, increased vessel size using the 
waterway, and wrecks or changes in navigational use must be placed on a 
schedule to avoid a recurrence of the backlog situation. The U.S. Coast 
Guard, marine pilots and port authorities have also identified 
additional areas as potentially dangerous to safe navigation and in 
need of survey. NOAA is able to address some of these unanticipated 
requests on a quick response basis following hurricanes or other 
disasters. For example, NOAA surveyed in Puget Sound for navigation 
hazards following the February 2001 earthquake near Seattle. For the 
most part, however, the remaining priority areas will take over 300 
years to survey at the current level of effort. Limiting NOAA's efforts 
to critical backlog alone does not fully meet the needs of commercial 
mariners, recreational boaters, our federal partners, or other users, 
for whom high-accuracy navigation information is essential to operate 
safely in all nearshore waters. These stakeholders are depending on 
NOAA to produce new digital hydrographic data to populate the 
Electronic Navigational Chart and other innovative products that far 
exceed the paper nautical chart in precision and capability. NOAA's 
modern survey techniques using the Global Positioning System for 
positioning accuracy are a significant improvement over older data 
collection methods.
[GRAPHIC] [TIFF OMITTED] T5129.001

    Maintaining federal expertise in the management of hydrographic 
surveying has been and will continue to be key to fulfilling NOAA's 
legal responsibilities as the Nation's hydrographic and charting 
office. NOAA can maintain that expertise with its hydrographic survey 
vessels and a core group of government hydrographers and still contract 
with the private sector for survey data. As I mentioned earlier, NOAA's 
plan is to employ a mix of assets to acquire hydrographic survey data; 
that is, to balance NOAA's capabilities with private sector contracting 
and vessel leases for survey data. In-house expertise enables NOAA to 
confidently accept data from outside sources, assume liability for 
contractor data it accepts, and provide competent oversight of all 
aspects of private surveying practices for these large multi-million 
dollar contracts or chartered vessels. NOAA takes its responsibilities 
for assuring the accuracy of the data on its charts very seriously.
    To comment on the effectiveness of the Hydrographic Services 
Improvement Act on this program, the outlook is very good for NOAA to 
continue to achieve efficiencies in its hydrographic surveying 
responsibilities. A mix of assets--in-house and contract--has proven 
highly successful to date, and we hope to see continued support for 
this approach in a reauthorized Hydrographic Services Improvement Act. 
At the request of Congressman David Vitter (R-LA) and the Office of 
Management and Budget, NOAA is now exploring a vessel lease option to 
add survey capacity and flexibility to reducing the hydrographic survey 
backlog. We have entered into a contract with the auditing firm KPMG to 
perform an independent cost analysis of NOAA's hydrographic surveying 
through NOAA vessels, contracting and a vessel lease. KPMG's report is 
due at the end of September. The purpose is to enable NOAA to most 
effectively deploy its resources and highlight the most appropriate use 
of survey options based on geography and risk mitigation. For example, 
some survey areas strewn with rocks and pinnacles pose complex 
challenges. It therefore may be more efficient to utilize the 
experience and size of the NOAA ships RAINIER or FAIRWEATHER in these 
dynamic regions where it is difficult to specify deliverables and to 
task contractors with more well-defined seafloor areas on which they 
have more experience.
    NOAA's partners look to us for hydrographic leadership and research 
into new survey technologies; developing efficiencies with multi-beam 
and side scan sonar equipment on NOAA survey vessels improves the 
effectiveness of both in-house and contract operations. NOAA also 
demonstrates expertise by developing software integration and state-of-
the art technology with industry and academia. Advances in NOAA's 
hydrographic surveying program will fuel this research and development, 
provide more opportunities and options for contract survey work to 
speed reduction of the critical backlog, and begin to address the 
remaining navigationally significant areas in need of survey. The 1999 
assessment of the U.S. Marine Transportation System echoes this three-
part goal. It recommends that NOAA accelerate backlog reduction, make 
progress on surveys for the rest of the Exclusive Economic Zone, and 
incorporate advanced technologies into hydrographic surveying to 
improve data collection and enhance the Electronic Navigational Chart 
for safe navigation. However, the language in the draft reauthorization 
measure provided with the letter of invitation limits NOAA's authority 
to operate its hydrographic ships without multi-beam equipment after 
October 1, 2001. We fully support the Subcommittee's intent that NOAA 
use modern equipment, but submit that the provision is overly specific. 
For example, it would prohibit NOAA from operating subsequent and more 
modern generations of equipment as those become available. In some 
cases, multi-beam systems on NOAA's smaller vessels might be 
inappropriate. NOAA's goal is to procure multi-beam systems to 
modernize all larger NOAA survey vessels, but this effort will take 
funding and time to achieve beyond the deadline specified; furthermore, 
we believe this limitation on authority is counterproductive to using 
all available assets to reduce the survey backlog.
    Our partnership with the University of New Hampshire Center for 
Coastal and Ocean Mapping and Joint Hydrographic Center continues 
NOAA's commitment to productivity improvements by promoting research 
and development, creating new markets and improving the training and 
capability of U.S. hydrographers. The Joint Hydrographic Center has 
been extremely successful, exceeding all expectations in its first two 
years of operations. Both the educational and research programs are 
well established and have achieved significant results. M.S. and Ph.D. 
programs in Ocean Mapping have been approved by the University and 
recognized by the International Federation of Surveyors/International 
Hydrographic Organization, and 10 graduate students are enrolled to 
date. In addition, the Center has developed software tools to read most 
types of hydrographic data; developed 3-dimensional hydrographic data 
visualization software; tested the ability of high speed high 
resolution side scan sonar to deliver bathymetric data; and worked with 
NOAA to survey Portsmouth Harbor for the Shallow Survey 2001 conference 
data set. The Center is also supporting NOAA with bathymetric data 
analysis in connection with potential Law of the Sea continental shelf 
claims in the Arctic.
Electronic Navigational Charts
    The Electronic Navigational Chart (ENC) is perhaps the most 
anticipated, and most critical component of NOAA's suite of navigation 
tools. NOAA began developing ENCs in 1994 when new advances in 
navigation technology foreshadowed the potential for an integrated MTS 
information infrastructure. To meet the requirements for civilian 
transportation, the Department of Transportation began implementing 
Global Positioning System (GPS) augmentations based on a technique 
known as ``differential'' GPS (DGPS). Operated by the U.S. Coast Guard 
for vessel positioning, the maritime DGPS has revolutionized onboard 
navigation systems to give mariners very precise location data at 10 
meters or less. Because more than fifty percent of NOAA's nautical 
charting data were collected before 1940, in many cases the DGPS 
position is more accurate than both the surveying technology that 
gathered the soundings and the traditional nautical chart itself. 
Depending on scale, the graphical accuracy portrayed on a nautical 
chart can range from 40 to 100 meters. This is often the cause of the 
``ship on the pier'' situation, where the vessel tied up at the pier 
appears on the navigation system to be on the pier rather than 
alongside. NOAA recognized early on that mariners need high-accuracy 
electronic chart data to fuel their real-time navigation display 
systems for collision and grounding avoidance and ``just-in-time'' 
delivery routing practices. Reaching the same conclusion, the 
international hydrographic community encourages ENC development by 
countries. The International Maritime and Hydrographic Organizations, 
the latter on which NOAA represents the United States, developed 
performance and data standards to authorize use of Electronic Chart 
Display and Information Systems instead of paper charts. Commercial 
mariners in particular embraced these concepts, as requirements to 
carry and update nautical charts aboard vessels are burdensome and 
bulky.
    At the same time, though, NOAA could not abandon its continuing 
charting mission to focus exclusively on the new ENC technology. Many 
mariners still required traditional nautical charts. To meet this need 
efficiently, NOAA developed a digital database system to update its 
paper charts more quickly and get accurate data into the hands of users 
in a more timely fashion. Additionally, the Raster Nautical Chart (RNC) 
was designed with a private sector cooperative research partner as an 
interim product that mariners could use while the advanced ENCs were 
being developed. The raster product has been very successful. 
Continually maintained using base chart program funding, it has proven 
to be highly efficient and popular in its own right with the computer-
savvy mariner. NOAA and its private sector partner, MapTech, Inc. of 
Amesbury, Massachusetts, and Bangor, Maine, have built on RNC 
technology to develop a weekly electronic Update Service for the RNC, 
and a new Print On Demand chart that is also updated on a weekly basis, 
printed with the latest information when ordered, and then mailed to 
the customer. Though essentially just an electronic picture of the 
paper chart, and hampered by the same positioning limitations, the RNC 
has enabled NOAA to improve its navigation products in the short term 
and provide the public with affordable, accurate and up-to-date 
navigation information.
    The ENC is the next-generation product required to meet the 
increasingly sophisticated and technological demands of mariners and to 
ensure safe navigation. Built to international standards, ENCs, also 
called vector charts, are not charts but rather a database of chart 
features and digital hydrographic data that can be intelligently 
processed and displayed by electronic charting systems. As ``smart 
charts,'' ENCs give the user much more information than the paper chart 
can, and with much greater accuracy. They can be integrated with GPS 
satellite data and other sensor information (such as water levels, 
winds and weather) to significantly improve navigation safety and 
efficiency by warning the mariner of approaching hazards to navigation 
and situations where the vessel's current track will take it into 
danger. The NOAA ENC supports all types of marine navigation by 
providing the official database for electronic charting systems. The 
utility of the ENC database extends beyond navigation; for example, it 
can also support marine geographic information systems for coastal 
management.
    Rather than simply ``vectorizing'' or digitizing the paper chart, 
NOAA contracts with the private sector to construct the base ENC, which 
is then supplemented with more precise data compiled by NOAA for 
critical chart features such as channels, aids to navigation and 
obstructions. NOAA's long-standing partnerships with the Coast Guard, 
the Army Corps of Engineers and numerous other entities generate 
immense quantities of this high-accuracy source data, which NOAA 
digests and quality controls before charting. Our partners also 
anticipate the availability of the ENC to meet their own objectives. 
For example, NOAA's ENC will integrate with the Coast Guard's Automated 
Identification System (AIS) to help track and manage vessel movement. 
The International Maritime Organization has established a 2002 deadline 
for all new commercial carriers to be fitted for AIS transponders. 
Existing ships must be retrofitted for AIS transponders by 2005. This 
international requirement makes it imperative for NOAA to move forward 
in ENC construction and delivery.
    As we testified in 1997, and again in 2000, NOAA has taken an 
incremental approach to developing the ENC using the limited resources 
it has available. NOAA's strategy has been to maintain and update its 
existing chart suite in paper and raster formats while it creates 
vector ENCs for waters where more detailed data would best promote safe 
navigation, principally in and around the 40 major U.S. commercial 
ports. Using this investment-for-benefit strategy, NOAA has built 135 
ENCs, and plans to provide a total of 200 by the end of 2002 for the 
Nation's busiest ports under the current budget request. Ultimately, 
but only as resources allow, NOAA needs to produce approximately 660 
ENCs to correlate with the paper chart suite of 1000 charts in order to 
respond to the Marine Transportation System's need for full contiguous 
coverage of U.S. and territory waters. Commercial mariners, as well as 
electronic chart system manufacturers, have an expectation that NOAA 
will produce a full suite of ENCs to provide significantly more 
accurate and up-to-date information that can enhance safety and 
environmental protection, reduce risks, and improve efficiency.
    As of mid-July, NOAA has started releasing ENCs in a provisional 
form for free download over the Internet. Since the first 63 ENCs were 
posted, over 10,000 ENC files have been downloaded. This shows a real 
interest on the part of the public, given that the availability of 
these files has not been widely advertised, and the downloading traffic 
has been steady to date. NOAA intends to make the provisional ENCs into 
official chart products once we can provide periodic updates (sometime 
after January 2002).
Shoreline Mapping/Geodetic Positioning
    The Hydrographic Services Improvement Act of 1998 also authorizes 
appropriations for NOAA's shoreline mapping and geodetic programs, 
which support NOAA's nautical charting efforts, the MTS infrastructure, 
and the Nation's positioning needs. NOAA's shoreline mapping activities 
provide the accurate, consistent, and up-to-date data required to 
delineate shoreline for NOAA's nautical products and ENCs. The 
shoreline depicted represents the official National Shoreline of the 
United States. NOAA delineates shoreline with stereo photogrammetry 
using tide-coordinated aerial photography controlled by kinematic GPS 
techniques. This process produces a seamless, digital database of the 
National Shoreline. NOAA and its partners are working together to 
develop new remote sensing techniques to accelerate shoreline mapping, 
but only about 10 percent of the shoreline has been produced digitally 
to date. In addition, approximately one-third of the U.S. shoreline has 
yet to be mapped by NOAA and our partners in a manner that meets NOAA's 
requirements for tide-controlled surveys for nautical charting 
(primarily areas in Alaska, the Great Lakes, and the West Coast north 
of Santa Barbara, California). Much of what has been mapped was done 
prior to 1970, and the accuracy, consistency, and currency of these 
areas of the coastline cannot be warranted. America's 95,000 miles of 
coastline are subject to natural and man-made processes that 
continually alter its shape and character. The National Shoreline 
should be frequently evaluated, especially in this era of rapid coastal 
development.
    NOAA has determined that, in order to adequately maintain the 
National Shoreline, it must place critical portions of the coastline on 
a 5-year average cycle to resurvey and map, with remaining areas mapped 
on a 10-year average cycle. An area is determined to be critical based 
upon the level of economic activity, the potential for alteration, and 
its environmental sensitivity. At the present rate of progress, NOAA 
maintains the existing shoreline data on a 50-year cycle and cannot 
address the one-third that has yet to be mapped. This is not sufficient 
to keep pace with the needs of ENCs and the growing stress on the 
Marine Transportation System.
    NOAA received a $1.5 million increase for shoreline mapping in 
fiscal year 2001. In line with its commitment to increase the 
opportunities for private sector performance for routine data 
acquisition and processing when appropriate, NOAA is in the process of 
contracting for shoreline in the Gulf Coast and Alaska in support of 
hydrographic surveying. NOAA intends to open up all future increases in 
shoreline mapping and will begin to submit its current in-house 
operations in the gathering of shoreline data to competition with the 
private sector, in accordance with the Administration's Competitive 
Sourcing Initiative. We have held workshops and meetings with relevant 
private sector entities to inform them and work through issues in 
advance. Knowledge gained from these activities has helped us devise a 
strategy for photogrammetric and remote sensing services related to 
shoreline mapping. We believe this strategy alleviates the need for a 
report to Congress, as directed in the proposed draft reauthorization 
measure provided to us. Using experience gained from its hydrographic 
program as a model, NOAA will maintain core surveying management 
competency but will also compete with the private sector and develop 
opportunities to build private sector capability in photogrammetric 
mapping to NOAA standards. GPS-positioned shoreline provides the high 
accuracy needed for ENCs. Other new products that the private sector 
could produce, such as large-scale docking charts, would also rely on 
NOAA's digital shoreline database.
    Over the years NOAA's photogrammetric techniques have also been 
applied to other environmental problems dealing with the coastal zone. 
For example, the program has produced boundary maps for government 
agencies and legal authorities for use in the adjudication of marine 
boundary disputes among Federal, state, and private litigants. Storm 
evacuation maps have been used by government and disaster relief 
agencies for planning emergency evacuation of affected inhabitants from 
coastal areas subject to flooding by severe storms and hurricanes. NOAA 
has also provided imagery to disaster relief agencies to assist in 
rapid response storm damage assessment. Coastal zone managers, 
planners, scientists, and regulatory agencies use the coastal zone maps 
prepared by NOAA to assess marshlands, marine sanctuaries and other 
coastal areas subject to multiple use.
    Another crucial part of NOAA's mandate is management of the 
National Spatial Reference System (NSRS), which provides a common 
geographic framework and the foundation for the Nation's spatial data 
infrastructure. NSRS provides the basis for mapping, charting, 
navigation, boundary determination, property delineation, 
infrastructure development, resource evaluation surveys, and scientific 
applications; in other words, it is the underlying reference system 
that provides positioning consistency for the entire United States. 
NOAA is enhancing NSRS to complement the Global Positioning System and 
give more integrity to GPS coordinates. The mainstay of NSRS is the 
nationwide network of Continuously Operating Reference Stations 
(National CORS). NOAA supplies data from over 200 National CORS sites 
through cooperative agreements with academic, commercial, government, 
and private organizations.
    The U.S. Coast Guard's maritime DGPS network is a major contributor 
to the National CORS. NOAA also provides integrity monitoring for the 
Coast Guard DGPS sites to help ensure the system's reliability. The 
Department of Transportation is currently expanding the maritime DGPS 
network into the Nationwide Differential GPS (NDGPS) network. NDGPS 
allows the marine navigator to determine vessel location and the 
National CORS system allows the creation of charts specifying water 
depth beneath the vessel and the distance from the vessel to a docking 
site or an obstruction. NDGPS provides data to be used instantaneously 
for positioning within a few meters. National CORS provides a framework 
from which users extract data for more precise applications; surveyors, 
engineers, GIS professionals, and others may use CORS data via the 
Internet to compute 3-dimensional positions with an accuracy of a few 
centimeters. Over 90 percent of the conterminous United States is 
within 200 kilometers of at least one National CORS. It is NOAA's goal 
to have the entire U.S. within 200 kilometers of three National CORS in 
order to provide higher positioning accuracies and capabilities. NOAA 
is also working on techniques for highly accurate positioning with GPS 
in real time, so that mariners may make better decisions for operating 
their vessels safely. With this expanded capability, port managers and 
shippers have the opportunity to safely maximize capacity.
    In the words of one GPS equipment manufacturing executive, 
'Accuracy is Addictive.' The need for more accurate, timely, and 
consistent positioning services causes the NSRS to continually evolve 
in anticipation of meeting these burgeoning demands. One such effort 
particularly relevant to marine transportation safety is Height 
Modernization, a set of NOAA-led efforts to enhance the vertical 
component of NSRS by providing better access to accurate, reliable, 
real-time height data. NOAA prepared a report on Height Modernization 
for this Subcommittee in 1998. This vertical accuracy is important 
because, for example, knowing underkeel clearance (or the vertical 
distance between a ship's bottom and the channel floor) minimizes the 
risk of groundings, environmental damage and time spent waiting on high 
tides to enter or leave a port. Knowing more precisely where a vessel 
is helps the mariner to maximize use of limited channel depths safely 
in changing weather and water conditions. Collisions with bridges can 
be avoided if mariners have height information to navigate precisely 
and know in real-time the air gap between the bridge and the vessel. 
Preventing such incidents has an important effect on port capacity 
because a maritime accident can close down a port, delay and reroute 
other vessels, trains and road traffic, and cost millions of dollars, 
especially if the accident results in a hazardous spill. A recent 
example is the lift bridge struck by a grain freighter in the Great 
Lakes between Lake Ontario and Lake Erie. This accident had the 
potential to block the St. Lawrence Seaway to both U.S. and Canadian 
marine traffic for several days while clean-up took place, causing 
expensive delays for other vessels moving freight through this major 
marine trade link.
    In order to implement Height Modernization, NOAA engages in a 
variety of partnerships with the private sector, state and local 
governments, and other Federal agencies. Many of these partnerships 
provide geodetic control and access to NSRS, as well as development and 
implementation of geodetic applications. NOAA is currently assisting 
the states of California and North and South Carolina with targeted 
funding, guidance and coordination. The intent is to have these serve 
as prototype arrangements for implementing Height Modernization 
nationwide. In fact, as directed in the pre-conference House 2002 
Appropriations Bill, NOAA has moved forward on addressing a report 
request to work with Louisiana and Wisconsin to assess these states' 
geodetic program needs. NOAA held listening sessions in mid-August and 
we plan to produce our report by the specified deadline of September 
15, 2001, for Conference action.
National Water Level Observation Network/Physical Oceanographic Real-
        time Systems
    Real-time water levels, tides and currents are an important tool in 
NOAA's suite of services to support safe and efficient use of a port. 
The Physical Oceanographic Real-Time System, or PORTS, has received 
Congressional attention in recent years, but the network of water level 
stations that underpins PORTS is perhaps less well known. The National 
Water Level Observation Network (NWLON) consists of approximately 175 
continuously operating water level measurement stations distributed 
along U.S. coasts, in the Great Lakes and connecting channels, and in 
the U.S. territories and possessions. NWLON provides basic tidal datums 
to determine U.S. coastal marine boundaries and for nautical chart 
datums and long term sea level change. It also provides support for 
NOAA's tsunami and storm surge warning programs, climate monitoring, 
coastal processes and tectonic research. In the Great Lakes, water 
level stations support water management and regulation, navigation and 
charting, river and harbor improvement, power generation, scientific 
studies and adjustment for vertical movement of the Earth's crust in 
the Great Lakes Basin.
    Although the NWLON stations have now been modernized with a real-
time data dissemination system developed in the 1980's, NOAA has been 
unable to revisit stations to perform routine maintenance. This has 
caused some stations to fail, and data from others is suspect. A recent 
comprehensive assessment of NOAA's tidal current prediction products 
shows major gaps and deficiencies for the Nation's ports and harbors 
due in part to this station degradation. NOAA needs to restore failing 
stations to operational status, collect current meter data at 
historical locations and at new locations critical to the mariner. The 
new data will be used in the design of future PORTS and in the 
calibration and validation of hydrodynamic models for development of 
nowcast/forecast products of water conditions critical for supporting 
increasing marine commerce and safe navigation.
    NOAA is working with regional and local partners to expand the 
water levels observation network and PORTS in major U.S. ports. PORTS 
is a decision support tool which integrates and delivers real-time 
oceanographic data--water levels, currents, winds and water 
temperature, forecasts and other geospatial information--to users via 
the telephone, fax, and Internet. There are currently five large PORTS 
(Tampa, New York, San Francisco, Narragansett Bay and Houston/
Galveston), and several smaller single station real-time systems 
(Chesapeake Bay, New Haven, Soo Locks, Tacoma, Seattle, Anchorage, 
Nikiski). Emphasis is now being placed on implementing real-time data 
dissemination of automatically quality-controlled data from the entire 
NWLON. Many ports have expressed interest in partnering with NOAA to 
obtain their own PORTS, including Los Angeles/Long Beach, Charleston, 
New Orleans, and Jacksonville, Florida, among others. Local authorities 
fund and maintain the PORTS equipment, and NOAA assists with 
installation and quality assurance. NOAA has developed and implemented 
a quality control capability called the Continuous Operational Real-
Time Monitoring System (CORMS) to provide a centralized capability to 
quality control the real-time data. This capability will ensure that 
mariners and other users have accurate data upon which to confidently 
base critical operational decisions that can affect life and property.
    PORTS can tie into a vessel traffic system to help move ships in 
and out of port as quickly as possible, and as fully loaded as is 
safely possible. Underkeel clearance, of course, is again a key aspect 
of this. A few more inches of draft can mean additional thousands to 
millions of dollars to a shipper. It may take anywhere from two to 
eight hours for a ship to leave a port and reach the ocean, and, of 
course, it can take many hours to load additional cargo. To maximize 
cargo loads, mariners need to know what the underkeel clearance will be 
from 6 to 24 hours into the future. This takes forecast models combined 
with real-time oceanographic systems and up-to-date nautical charts. 
NOAA is doing research into forecast models and new visibility and air 
gap sensors tied to PORTS; in fact, the Chesapeake Bay Forecast Model 
just recently became operational to provide the maritime community with 
improved predictions of water levels in the Chesapeake Bay. Ships 
coming into port will use these sensors and models to time arrivals for 
the best underkeel clearance situation and not have to wait outside the 
bay or port entrance, wasting fuel. Knowing more exactly where a vessel 
sits in the water column also reduces the need for deeper safety-margin 
dredging.
    NOAA continues to hear from the navigation community that the need 
for PORTS data is a high priority. The 1999 MTS Assessment also 
recommended expanding PORTS technology for maximum safety and 
efficiency in waterways management. Many members of Congress are aware 
of the utility of NOAA's real-time water level systems. In 2000 NOAA 
sought, and appropriators granted, permission to reprogram funds to 
keep PORTS operational and to activate Narragansett Bay. fiscal year 
2001 funding enabled NOAA to maintain support for the existing PORTS 
and implement the prototype CORMS. The current 2002 budget before 
Congress would add needed flexibility to the program; this level of 
funding will help maintain and upgrade the NWLON and allow NOAA to 
provide quality assurance services for an expanded network of PORTS.
The Future: A new Hydrographic Services Improvement Act
    Maritime shipping is the cheapest and most environmentally 
responsible method of transportation. For many bulk products, from oil 
to farm goods, there is no alternative transportation means. NOAA 
provides tools to maximize the capacity of American ports while 
safeguarding the environment. NOAA's navigation services can increase 
the efficiency of a port's throughput, and they help the coastal 
manager make informed decisions on development and resources. With 
better information about bathymetry, water levels, currents, 
positioning and obstructions, larger vessels can enter U.S. harbors and 
carry more cargo for export, and every inch matters.
    NOAA is an active participant in the MTS Initiative, and it is our 
hope that a reauthorized Hydrographic Services Improvement Act will 
allow NOAA to fully implement the integrated suite of services sought 
by users of the MTS. NOAA's programs also support the National Energy 
Policy by supporting safe waterborne transport of energy products and 
national security objectives. To help achieve the world's most 
technologically advanced, safe, efficient, globally competitive and 
environmentally responsible system for moving goods and people, NOAA 
must continue efforts to modernize its navigation services programs and 
get its data into the hands of mariners and other users. Private sector 
and fellow MTS agency partnerships are key to our collective success in 
improving the MTS infrastructure.
    I am pleased to report that significant headway is being made on 
the critical backlog, and that NOAA is taking a look at strategies for 
surveying other Navigationally Significant areas. Contracting for 
hydrographic surveys is progressing very well. NOAA is satisfied with 
the overall quality of the data generated by its contractors. The 
letter of invitation inquires why NOAA was unable to develop a 
meaningful plan to maintain expertise in hydrography and asks whether 
it is still necessary for NOAA to maintain expertise. NOAA did submit 
the report, the Hydrographic Expertise Report to Congress in fiscal 
year 2001. This report, combined with the plan submitted to Congress 
five years ago, explains NOAA's basic strategy at that time to 1) use 
government vessels, 2) increase contracting, 3) pursue a third option 
of leasing vessels, and 4) work with the private sector and other 
agencies in the research and development of technologies. NOAA will 
continue to work on ways to maintain expertise in the management of 
hydrographic surveying, and ensure that the work is done in the most 
efficient and reliable way possible and in accordance with 
Administration policy on competitive sourcing.
    The Hydrographic Services Improvement Act has been an effective 
mechanism to begin addressing the survey backlog, and now NOAA should 
turn its attention to fully modernizing the rest of the navigation 
services program to handle the incoming hydrographic data and get this 
critical information out to the mariner in a timely fashion. Some 
changes that NOAA would like to see in a reauthorized Act include 
increased flexibility to work with the private sector, non-governmental 
and volunteer organizations to fulfill this mission. Authority to 
increase public awareness on the availability of hydrographic services 
would also help improve public safety and expand the community of NOAA 
data users to more environmental groups. Clarifying that NOAA provides 
basic data for environmental applications as well as engineering and 
scientific purposes would simply encourage additional uses of this data 
not foreseen in 1947. Finally, new authorization levels should reflect 
the costs to implement new technologies in modernizing NOAA's 
navigation programs, maintain and update charting and associated 
databases, and provide high-accuracy data and services in the real-
time, digital formats demanded by our users. We request that the draft 
reauthorization levels be consistent with the President's Budget. The 
Department's draft bill will address the appropriate levels.
    An unintended consequence of the draft authorization is that it 
would nullify the permanent authorization of the programs provided by 
the Coast and Geodetic Survey Act of 1947. NOAA's navigation programs 
are perpetual infrastructure needs for the safety of the Marine 
Transportation System and should remain permanently authorized. They 
should not be subject to accidental de-authorization in the event that 
Congress is delayed in acting on a programmatic reauthorization. As I 
stated earlier, limits on NOAA's authority to operate its hydrographic 
ships without multi-beam equipment are overly specific. We fully 
support authorizing NOAA's use of modern equipment, but limitation on 
authority is unnecessary. The draft legislation also inadvertently 
restores language that limited NOAA's authority to perform navigation 
services to U.S. waters; this language was changed in 1960 (Pub.L. 86-
409) and reiterated most recently during the 106th Congress with HR 
1000, Title VI, Section 605 (Pub. L. 106-181), to clarify NOAA's 
ability to operate outside of U.S. waters.
    In closing, I would like to reiterate our focus on the ENC, the 
electronic navigational charts which will integrate all of NOAA's core 
products--new and accurate hydrographic and shoreline data, precise 
positioning information, and real-time oceanographic data--to enhance 
situational awareness and help the mariner utilize water depths more 
safely and effectively for navigation and cargo movement, in all 
weather conditions. As MTS trade and congestion increase, mariners will 
need to be able to navigate in more crowded, low visibility situations 
to keep traffic flowing. The impact of weather delays on cargo delivery 
has ripple effects throughout our economy; Houston Ship Channel is an 
excellent example of this. Home to some of the Nation's largest 
petrochemical facilities, this port is shut down by heavy fog each 
winter as ships sit waiting for better weather to transit the channel. 
Delays in energy delivery translate into higher fuel prices for 
consumers. The ability to navigate with the ENC in low visibility would 
help reduce this backlog of ships awaiting passage and improve vessel 
traffic management.
    An initial set of ENCs is now available in prototype format via the 
Internet and NOAA continues to maintain and update the raster nautical 
charting database. The shoreline mapping program will expand its 
contracting efforts this year to acquire more digital shoreline data, 
and model arrangements with key states will help NOAA initiate Height 
Modernization of the Nation's spatial reference system. Finally, we are 
optimistic that the 2002 budget now pending before Congress will enable 
us to put the ENC on track, as well as adequately maintain the NWLON 
and PORTS systems, to support the Nation's need for high-accuracy 
products to promote safe navigation.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5129.002
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5129.003
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5129.004
                                 
    Mr. Gilchrest. Thank you, Mr. Gudes. Is NOAA now--you 
haven't presented to us a specific road map for a plan that 
NOAA will embark upon. There are various options out there, and 
I know, based on certainly ever improving technology, perhaps 
there is some hesitancy to move in one direction before a 
technology that is on the horizon could be put into production 
in the next 6 months. And our Committee would like to work with 
you, if, in fact, that direction has not been resolved yet, a 
specific set of options have not come to a fundamental 
conclusion. So this Committee would like to stay in touch with 
you, Mr. Gudes, to pursue as quickly as we can, the best 
available options.
    Having said that, can you give us some idea of what we can 
expect with the extra money from 12 million to 33 million, if, 
in fact--and we are hoping that you would actually get that 33 
million in the President's budget?
    Mr. Gudes. I think the Senate bill actually has even more 
than the 33 million in it for some other programs to enhance 
our efforts. I think that the lease charter I talked about is 
on both sides of the House and Senate, or a time charter, I 
guess the right way to put it, which is the idea of a private 
sector ship that would really be operating on a much higher op 
tempo, dedicated on behalf of doing backlogs, possibly in the 
Gulf of Mexico, for example.
    In the case of the 33 million, that change between the 12 
million and 33 million, it represents the ship time. It 
represents bringing the Fairweather to activation. I think that 
actually takes place in 2003, fiscal year 2003, under our 
intentions, our plan. It includes operating our other three 
ships, the Rude, the Whiting on the east coast and the Rainier, 
which is our most effective vessel on the west coast which has 
six launches. It includes around $20 million or so of charter 
time of using the private sector through specific charters. And 
I would say that in any sort of plan, in any sort of outlook, 
we are working with the private sector closely to make those 
contracts more and more effective on the square nautical miles 
that can be worked down with each of those contracts. And I 
think last time I testified, Mr. Chairman, I talked about how 
we have actually had some of our officers come off of ships, 
and then the next job was working on shore with the private 
sector and with the communities in terms of making that 
relationship more effective.
    Mr. Gilchrest. So the extra money would be of a fairly 
large significant improvement in time, both on board ship, 
working with the private sector to bring about more and better 
hydrographic information. Could that also represent, in the 
near term, the specific way in which NOAA is going to complete 
this task?
    Mr. Gudes. I am sorry. Say it again Mr. Chairman.
    Mr. Gilchrest. The extra money, will that bring to fruition 
a specific plan, a choice of an option or options that NOAA 
will pursue?
    Mr. Gudes. Well, we have submitted a hydrographic service 
plan to you. I understand some of the criticisms of the 
Committee that you feel that it--it is too general.
    Mr. Gilchrest. Do you feel that--and that is a good--I am 
glad you said that. Do you feel that you are moving in a 
direction that you want to move in? Is it just a perception of 
us that it appears vague, but in your mind you are on this 
course and you are in full gallop toward your goals?
    Mr. Gudes. Let me tell you what I do think, Mr. Chairman, 
and tell the Committee. This is my view, and you can either 
applaud or get me in trouble for saying any of this. I think 
that it is--.
    Mr. Gilchrest. We would be happy to hear you say something 
that you think might get you in trouble.
    Mr. Gudes. I think I did last time I testified.
    Mr. Gilchrest. That is how we make progress here.
    Mr. Gudes. I think we talked about HAZMAT, one of my staff 
told me. I think that we are on the right track, and I do 
believe that if you listen, and I know we have been at a few 
events together, I talk about the impact that NOAA has had on 
our ocean programs. I think in almost every case it has been 
very positive. And we now have a new ocean commission, as you 
know, to take a look at things. But if you take a look at this 
area of our business, it is quite clear that after 1970, this 
country and NOAA reduced its capability. We went from 11 ships 
to 8 ships to three ships in terms of the inherent government 
capability, the internal capability and we did very little 
contracting.
    And so it is not by accident that really our capabilities 
by the mid 1990's were less than they were when NOAA was 
created. We have, through your leadership, through the 
Congress's leadership and through people like Captain Dave 
MacFarland and Admiral Fields who are behind me, really turned 
that around in just the last few years. We are investing in new 
equipment in our ships. Admittedly, we are not building new 
hydrographic ships. We are investing in modernizing those 
ships.
    But the Rainier, as I said, is among the most sophisticated 
and capable ships that we have in the hydrographic area. We 
are, through the Congress's leadership, modernizing the 
Fairweather, and so I think on the government side, in terms of 
the equipment, we are doing the right things.
    In terms of the technical expertise, I think that the type 
of people, Sam Dubow, Commander Sam Dubow, who is behind me, 
Captain MacFarland, these are the Nation's preeminent 
government hydrographers. Efforts like creating the Joint 
Hydrographic Center, these are the right things to do to 
maintain the expertise. I think last time I testified here, I 
said that we had come down to about 80-something FTEs in NOAA, 
full-time equivalents that we considered hydrographic experts 
and I felt that that was as low and lower that the government 
should go; that we needed to rebuild that.
    And I would make that statement again today, which will 
probably have me in trouble, who knows. In terms of the private 
sector, we didn't do enough contracting. In the mid 1990's, we 
started to turn that around. Again, this was an area where 
Congress, especially the House of Representatives, came back us 
too, and now we are doing over $20 million of private sector 
contracts a year. This lease charter idea is one that the 
Congress has come to us with. And it is the idea of really 
getting a very high operating tempo from the private sector in 
areas that make sense where the private sector has special 
expertise, the Gulf of Mexico is a great example where I think 
we do very few government surveys in that area now. So on the 
hydrographic survey side, I think we are doing the right 
things. In terms of the R&D, I think we are finally starting to 
do the right things to take a look at new research and 
development, new tools to do the job. And it always is a 
question of getting these products out into information that 
the customers can use.
    I will say this, in fact, Captain MacFarland heads the 
constituent group that we meet with. NOAA does a pretty good 
job of going out and trying to meet with constituents and 
finding out what the private sector, the private sector in 
terms of the people who produce data with us, as well as the 
users, the ports and the shipping groups. I think that this 
part of NOAA's business promotes safe navigation or maritime 
transportation system is doing it right. When we have our 
constituent workshops, 60 percent or so of the people who come 
to the constituents workshops are private sector individuals, 
are customers, are constituents who are coming to us saying 
this is what we need the agency to do. And that is how we have 
been trying to change our plans. That is how we have been 
trying to offer our budget. I hope that answers your question.
    Mr. Gilchrest. In a very complete way. Just--well, I have a 
couple more questions, but I am going to yield to Mr. Underwood 
at this point. Thank you, Mr. Gudes.
    Mr. Underwood. Thank you, Mr. Chairman and thank you, Mr. 
Gudes, for your testimony on this. And I want to make sure you 
understand that even though I have some reservations about the 
contracting out, I am not asking these questions as away to 
contrast in House capabilities vs. outsourcing. You know, we 
are always going to have--we are going to have some contracted 
out work. I mean, there is not a--this is not a question of 
either/or, but it is a question of trying to understand what is 
the--what are the relative merits that would allow us to chart 
a more reasonable course in this regard.
    In terms of the optimum efficiency of the vessels that are 
directly under NOAA, are those--is the hydrographic capability 
of the vessels that we have directly under NOAA and their 
technological capabilities, are they at optimum efficiency now? 
Is there more--if we gave more resources to those vessels, 
would they--is there still a long ways to go, or are we at the 
peak? And how do these vessels compare in terms of their 
capabilities to vessels in the private sector as well as 
vessels of other countries?
    Mr. Gudes. Other countries I don't know the answer to that. 
I'd probably have to get back to you for the record. In the 
case of the vessels that we have, they were built specifically 
for the coast, the old coast and geodetic survey for the 
nautical part of NOAA. I think they are quite efficient. The 
Rainier, as I said, has six launches, so they can really 
multiply it capability. Some of the older ships are personnel 
intensive. It probably costs, I would guess, about 5 to $6 
million a year to operate the Rainier. But again, we have gone 
back, and one of the things I didn't mention in my testimony as 
I summarized was that we have gone back and done KPMG studies 
and others to take a look at the cost of our ships versus 
private sector versus lease charter. And we feel that actually 
in terms of the op tempo, in terms of the square nautical miles 
that we are getting that, in fact, they are very capable 
platforms.
    There is an issue I would be remiss in saying, twofold. One 
is the operating tempos that I mentioned. How many days at sea 
and how many days are you working. I just visited the Rainier 
and Whiting, two of our ships during the August recess. Those 
crews are working at high operating tempos.
    The Rainier is in Alaska for quite some months, and they 
are working very hard. And I would have a question of how much 
more we could expect from what we ask our crews to do. In the 
case of equipment, as you may know, we were prohibited from 
modernizing the equipment on our ships for some period of time. 
Multi beam sonar, as you know, we generally use side scan 
sonar. Multi beam sonar, it depends on the kind of topography 
underwater that we were looking at. We were prohibited from 
modernizing. We have been modernizing our ships now, and I 
think that is the right thing to do. In terms of the newest 
technologies, I don't--I will have to get back to you for the 
record about what is on the horizon.
    Mr. Underwood. In terms of the op tempo and the crews, is 
this comparable to service in the military, in the Naval 
service? Is this in, like, 6 months on, or is that--.
    Mr. Gudes. We are at about 200 and how many days for the 
Rainier? 220 days.
    Mr. Underwood. At sea?
    Mr. Gudes. For the same crew. That is at sea days. Yes, 
sir. Admiral Fields just reminded me. In terms for the military 
operating tempos, I really would have to get back to you.
    Mr. Underwood. That is more. I sit on Armed Services. That 
is a higher op tempo rate than Naval service.
    Mr. Gudes. It is. It is our fishery ships, our fisheries 
research vessels as well, and it has to do with the cost 
effectiveness of the days at sea as well.
    But we are convinced that at the current operating tempos 
that we are providing a pretty cost effective product for the 
American public. I would just add, Congressman, that in the--in 
my answer before, I do think that it is not a question of 
should you contract out or should you not. We believe that 
there is a lot of work that could be done in the private 
sector. And as I pointed, out we have aggressively moved to do 
work in the private sector, going back to Chairman Gilchrest's 
point, I think that there is a core capability that is 
important to maintain, and I think that that is about where we 
really are in terms of NOAA right now, and putting those three 
components together, as I pointed out, is what is really 
producing the reduction of the backlog.
    Mr. Underwood. Well, you know, this has many comparisons to 
a series of--a level of inquiry that we constantly pursue in 
the Armed Services Committee, which is, as well as A 76 
process, to what extent do you outsource? To what are issues of 
liability? What are core capabilities? What is essential to 
public health and safety?
    And so this is--you know, there are some activities 
obviously that can be more easily outsourced. At the same time, 
I want to express my concern that we certainly have in-house 
capability of the highest order, certainly, the best in the 
world. And if, based on the kind of information that you have 
provided in the chart, we don't have the capabilities of many 
countries to--we are not providing the same level of resources 
as many countries.
    Now, that is not the same as saying that we are not as 
capable. And obviously that is a judgment call that all of you 
that are involved in this line of work can make and best advise 
us on. But at the same time, also, in the process of 
outsourcing, it is very important that government retains the 
ability and not only to provide the core competencies and the 
best technical expertise to this area, but also is in the--can 
manage and monitor the outsourcing capabilities.
    So I am very interested in your chart, table A here on page 
7, which you have outlined going back to cost effectiveness, 
because we can analyze to what extent do we outsource on the 
basis of technical expertise and cost effectiveness, you know, 
whether these are dealing with issues concerning our core 
competencies. But in this chart you have outlined, that just in 
terms of cost effectiveness, on this chart, basically, the 
vessels that--the in-house capability for the year 2000 is 
certainly more cost effective than the outsourced or the 
contracted-out work.
    And then you have 2001, this year, your estimating that the 
cost effectiveness of that continues to go up in terms of the 
outsourced work. You know, I am not looking for a general 
statement of reassurance, but basically, what you have is you, 
if you have the cost effectiveness of the in-house at one 
level, and you have the private sector providing it at another 
level that, in the interest of making sure that you have a 
balanced approach, that we are actually increasing the capacity 
of the private sector and not kind of dragging it down.
    And if we are not investing the level of resources that we 
are into the in-house capacity or capabilities, then I am 
concerned that we are actually creating a balance by, you know, 
instead of raising one level, we are actually dragging down 
another level. Now, I don't know, you can--I suppose you can 
reassure me that that is not happening, and I certainly hope 
that is not the case. But it is a concern that certainly I want 
to express at this time.
    Mr. Gudes. Yeah. I think that again, going back to my 
comments before, we really didn't do a significant amount of 
private contracting until the mid 1990's. That is significant 
to note. NOAA's been in the--NOAA or its predecessors have been 
in the hydrographic survey business for years. It is the oldest 
function in our agency's lineage.
    But in the mid 1990's, we really started an aggressive way 
to do more contracting, again, largely to Congress, I think, 
saying the right things to us about that we needed to look at 
doing business differently. I think that we would find that the 
private sector is getting more and more productive. It also has 
to do with what areas you ask people to do the work in. There 
are some areas in Alaska that can be very intensive in terms of 
how much you can do. There are other areas of the country you 
can get a lot more square nautical miles done because of the 
bottom structure and because of the coast line, because of the 
type of ships.
    So there is a lot that goes in. But I think that the 
private sector and NOAA's relationship with the private sector 
has been growing stronger every year. I think the relationship 
between our NOAA fleet commanders, our NOS leadership, our 
hydrographic expertise in the private sector has been getting 
better every year. That the private sector contracts are 
becoming more and efficient. And so I think it is a good news 
story as you move toward the future.
    I do think, realistically, that looking at trying to solve 
that backlog problem that I pointed to before, we have got to 
look to expansion of the private sector capabilities. It is 
more likely that that is where we are going to be able to get 
that surge capability, and that is really what we have been 
doing, and what I think basically my statements were about, 
what we are looking towards.
    Mr. Underwood. Well, I think I clearly, in this regard, 
then, NOAA should be in the business of clearly identifying 
what core competencies we have and we should retain and we 
should invest R&D efforts in as well as making sure at the same 
time that in the contract management and the quality of the 
work that is being done by the private sector, that there be 
adequate resources devoted to that. There is certainly a great 
feeling sometimes amongst those people who are really strong 
advocates of outsourcing, a lot of work, that we are going to 
save a lot of money, and that this is not the case in this 
instance.
    But I know that that is the tendency inside the Department 
of Defense, in this case, we are actually adding more money to 
a necessary activity in which we are going to utilize the 
private sector. But I would certainly urge that whatever kind 
of quality assurance, because at the end of the day it is the 
government that is going to be liable, and it is NOAA that is 
going to be liable. It is all of us that are involved in this 
from the public's point of view that we will be liable for 
anything that goes wrong with that. And so I certainly hope 
that we provide adequate resources toward contract management 
and the quality assurance.
    Mr. Gudes. I fully agree with you. And I think Jeff made 
that statement, or answer, back to you that the Coast Guard 
looks to NOAA. When they get data from us, they don't know if 
it is private data or publicly produced data. It is data from 
NOAA that we are endorsing. And I would agree with you.
    Our general counsel points out that we are liable for all 
the surveying and work and data and products. And that is 
important to note. But I think that is right.
    Mr. Underwood. Thank you very much.
    Mr. Gilchrest.  Thank you, Mr. Underwood.
    A couple of follow-up questions, Mr. Gudes. One is the ENC 
Acoustic System. Is that employed on any ships right now?
    Mr. Gudes. Captain MacFarland tells me the answer is yes.
    Mr. Gilchrest. What kind of ships are they?
    Mr. Gudes. There are some--this is Captain MacFarland. Can 
I bring him up? This is Captain Dave MacFarland from National 
Oceanic Service.
    Captain MacFarland. Thank you very much.
    ENCs now are the fuel for the ECDIS, Electronic Chart 
Display and Information System, and those systems are employed 
on a few vessels around the world.
    Mr. Gilchrest. American vessels?
    Captain MacFarland. Sir, I don't know about that. I do know 
that there are a number of international vessels.
    Mr. Gilchrest. Are they oil tankers, cargo?
    Captain MacFarland. Yes, to all of those, as well as long-
distance ferries. There are some vessels in the Great Lakes 
that are using systems very similar to an ECDIS utilizing some 
data.
    Mr. Gilchrest. When you say ECDIS, what does ECDIS stand 
for?
    Captain MacFarland. Electronic Chart Display and 
Information System.
    Mr. Gilchrest. Is that the same as ENC?
    Captain MacFarland. The ENC--we are into the nitty-gritty 
of it right now. The ENC, the Electronic Charting data is what 
is used to fuel the ECDIS system. The ECDIS system is some 
software and display systems, some hardware also. And, yes, it 
is being used in some United States waters right now, but as a 
backup only for paper charts.
    Mr. Gilchrest. If you have that on your ship--and I think 
you probably just answered my question. When you have this 
ECDIS system on your ship, is it, in fact, better than having 
the charts?
    Captain MacFarland. Yes, sir.
    Mr. Gilchrest. Or in addition to, you can look at the 
charts, but this is going to verify whether the charts are 
accurate?
    Captain MacFarland. The answer to that is yes. The brand-
new electronic navigational chart is far more accurate.
    Mr. Gilchrest. That is in real time. That is on your ship 
and it is telling you what is underneath the boat?
    Captain MacFarland. It is telling you what is charted under 
the boat. It has got much more detail. You are also able to use 
it interactively with a global positioning system so you know 
exactly where you are at any given moment.
    It also, as Mr. Gudes testified, gives you the ability to 
have warnings. So a captain that is lost out there--and this 
happens occasionally--where he becomes disoriented, it will 
give him a warning telling him his ship is running into danger.
    Mr. Gilchrest. How does the system know the ship is running 
into danger? It can actually detect through some type of sonar 
that there is an object ahead of you?
    Captain MacFarland. No. That is not exactly how it 
operates. We give it survey information that tells it where the 
dangers lie. It knows where the ship is right now from the 
satellites above, and it can determine the course that the ship 
is headed. And it will tell you certain number of minutes, 10, 
15 minutes ahead of time, before you actually ground.
    Mr. Gilchrest. So you actually do, in fact, still need 
high-tech hydrographic service to put into that system for it 
to work?
    Captain MacFarland. That is exactly right. Because it is 
that high-tech information that you have been talking about 
that is needed. And that is the information that goes into the 
ENC that the mariner relies upon.
    Mr. Gilchrest. Thank you very much.
    One real quick easy question for Mr. Gudes to end the 
session, that is the cost-sharing at the PORTS or Physical 
Oceanographic Real Time Systems. Is that an essential part of 
the funding aspect of NOAA's operation?
    Mr. Gudes. Actually, that was again congressional 
leadership back about 1995 or so when people came back and the 
original plan was more of a Federal Government system and 
correction was to do more of a cost-sharing.
    Mr. Gilchrest. Is that the authorizers or the 
appropriators--congressional leaders?
    Mr. Gudes. It may have been the appropriators. I think that 
is right.
    Mr. Gilchrest. Thank you, Mr. Gudes.
    Mr. Gudes. Mr. Chairman, we are just about ready to go--
commission the Maryland PORTS, Chesapeake PORTS system. And we 
are working with Virginia on the lower bay to get a PORTS 
system activated.
    Mr. Gilchrest. If you can give us a date on that, we would 
like to be there when you commission it.
    Mr. Gudes. Mid to late October, I am told, from both sides.
    Mr. Gilchrest. As long as the Pilots' Association aren't 
still angry at us about the cost-sharing, we will show up. 
Thank you, Mr. Gudes.
    Mr. Underwood.
    Mr. Underwood. It is good, Mr. Chairman, to get a lot of 
attention. You know, if I could ask that NOAA provide a 
statement on what they would consider core competencies that 
have to be retained in house on the issue of hydrographic 
surveying.
    I wasn't going to make mention of this in your chart, Mr. 
Gudes, but in terms of the 3.4 million square nautical of EEZ, 
I assume this includes the Pacific as well?
    Mr. Gudes. It includes all the EEZ. I hope the map does, 
too.
    Mr. Underwood. Well, the map doesn't have the Pacific in 
there, so I just wanted to draw attention to that. It is one 
thing to miss Hawaii, but, boy, to miss Guam--.
    Mr. Gudes. We will get the map right next time.
    Mr. Gilchrest. I am glad you pointed that out.
    Mr. Gudes, Captain, thank you very much for your testimony; 
and we continue to look forward to working with you.
    Mr. Gudes. Thank you very much.
    Mr. Gilchrest. And we enjoyed planting grass on one of 
those beautiful little islands in the Chesapeake Bay a few 
months ago with NOAA. I am going to tell you that Mr. Gudes was 
on his knees a lot that day.
    Mr. Gudes. We are supposed to do something on habitat 
restoration up at the Baltimore Aquarium, maybe tomorrow if the 
event still happens. Same sort of recognition of them at Morgan 
State, habitat restoration.
    Mr. Gilchrest. The second panel is Ms. Helen Brohl, 
President of the National Association of Maritime 
Organizations; Mr. Kurt Allen, Management Association for 
Private Photogrammetric Surveyors; Mr. Frank Hamons, a dear 
friend, from the Port of Baltimore; and the rather magnificent 
pilot, Mr. Mike Watson, President of the American Pilots' 
Association.
    Ms. Brohl here today?
    Any rate, gentlemen, thank you all very much. Difficult 
circumstances for everybody. Thank you for your testimony that 
you submitted and for coming here this morning.
    Mr. Gilchrest. Good morning, Ms. Brohl.
    Ms. Brohl. My apologies.
    Mr. Gilchrest. I was just welcoming everyone and thanking 
them for their time and effort under these very, very trying 
circumstances. And if you are ready, Ms. Brohl, you may begin.

     STATEMENT OF MRS. HELEN A. BROHL, PRESIDENT, NATIONAL 
             ASSOCIATION OF MARITIME ORGANIZATIONS

    Ms. Brohl. Thank you very much, Mr. Chairman. Thank you 
very much for allowing us to be here today to participate in 
these reauthorization hearings. And we do appreciate the 
interest of the Committee on Navigation Services in the United 
States.
    My name is Helen Brohl, and I am here today representing 
the National Association of Maritime Organizations. It is 
comprised of 17 shipping associations and maritime exchanges 
from all four seacoasts of the United States. NAMO's membership 
brings together an important component of commercial maritime 
activity which is concerned about issues directly or indirectly 
impacting the safe and efficient navigation of vessels into and 
through U.S. waters.
    Navigation services under NOAA's National Ocean Service 
Division directly impacts our operational interests in the safe 
and efficient navigation of commercial vessels. The 
Hydrographic Services Improvement Act specifically spells out 
hydrographic responsibilities of the Administrator of NOAA. We 
believe that the National Ocean Service, as the implementing 
arm for the Administrator, has fulfilled that mandate very well 
and lived up to the increased financial support it has gotten 
in recent years.
    We have had experiences, however, where other functions 
under NOS have been in conflict with their effort to work 
productively with maritime. This may be resolved in the spirit 
of the MTS initiative.
    We also believe that it may be time for NOS to review their 
goals and priorities with industry input.
    NOAA has successfully expanded and improved its ability to 
acquire and disseminate hydrographic data with the additional 
funding from recent years. It is NAMO's understanding that 
``NOAA versus private surveying contractor'' relationship for 
accumulation of data, has been streamlined and is pretty 
successful.
    You certainly know that there are 500,000 square nautical 
miles of navigationally significant waters in the U.S., which 
is about 300 years of work. Getting to the survey backlog has 
been a successful appropriations priority. We are pleased with 
the success. But NAMO has always been just as concerned for the 
dissemination aspect of their mandate, which has not received 
equal support. Data collection is important, but only valuable 
as it contributes to updated and accessible nautical charts, 
whether electronic or on paper.
    We believe it is imperative that a thorough examination of 
chart dissemination, based upon the needs of industry, be 
organized by NOS with industry participation. We would expect 
that electronic navigation charts will eventually be the most 
efficient way to provide virtually real-time data charts to the 
consumer, whether it be through professional navigation 
systems, such as ECDIS, which you heard about before, in 
conjunction with the Automatic Information Systems, AIS, or 
even the home computer. Yet, we cannot emphasize enough, there 
is still a very real need for updated paper charts.
    The U.S. Coast Guard, under 33 CFR 164, states that no 
person may operate or cause the operation of a self-propelled 
vessel of 1,600 or more gross tons without an updated marine 
chart of the U.S. waters in which it sails. It is still the 
practice on commercial cargo vessels that a NOAA paper chart of 
those waters is kept on the bridge. The paper chart provides a 
readily accessible and broad view of those waters and allows 
the mariner to make written notations, such as you might find 
in "Local Notice to Mariners." This is essential since it is 
rare that charts are updated to that moment of use. In fact, 
many of the paper charts are woefully outdated.
    New data is often already on the NOS database, but is not 
getting to the consumer because of low funding. This, of 
course, impacts any form of nautical chart. But, again, we 
remind the distinguished Committee members that mariners will 
continue using paper charts as long as laptop computers don't 
fit into an outboard fishing boat or AIS transponders are not 
yet integrated into a vessel's technology or there is no PORTS 
station in every reach of navigable waters.
    NOAA has been wrestling with the issue of print-on-demand 
charts for a number of years. It was once proposed that there 
be a central phone number that could be called for a very small 
fee, less than $20. A newly printed chart based upon the data 
of that moment would be overnight expressed to the consumer. 
Naturally, chart agents who sell charts objected to this idea.
    There was also a real attempt to get chart agents to have 
plotters in their local store which could link to NOAA data and 
print the most updated chart on demand. You could walk into the 
store and they would just print out the most updated chart. But 
it is our understanding that only the more expensive plotters 
produce the best charts, and they were too expensive for the 
average chart sales agent.
    NAMO would like to see NOAA continue to accelerate their 
investigation into a subscription program which would 
automatically provide chart updates, whether by paper or 
computer disk. We don't really care if those updates go to a 
chart agent or directly to the chart or to a ship agent. But we 
need updated charts sooner rather than later. And we don't want 
the excitement of electronic charting to put that effort aside.
    And, of course, we don't want to hinder work toward free 
and accessible electronic charts. Obviously, information 
transfer is essential for all key commercial navigation areas.
    It is our understanding that NOAA works with the U.S. Coast 
Guard and U.S. Army Corps of Engineers to receive new data, and 
that the Corps of Engineers is also providing obstruction and 
sounding information in digital format. However, we do not know 
if the standard from Corps district to district or if all Corps 
offices are regularly sending any information at all. This was 
an issue on the Great Lakes.
    A lot of the data wasn't getting to NOAA for updating. It 
has been resolved because of industry intervention, but what of 
other areas in the country? Is this still a problem?
    We would like to commend NOAA for taking the initiative in 
being deeply involved in the development and adoption of 
standards that will stand up within the international 
community. NOS has an active and lead role with the 
International Hydrographic Organization and actively 
participates with the International Maritime Organization to 
ensure that both the national interests and the needs of the 
mariner are brought together. We believe that NOAA's expertise 
in hydrographic data standardization, collection and 
dissemination rivals that of any other country in the world.
    Just as the creation of updated charts is of the utmost 
importance to the safe passage of commercial cargo vessels to 
navigable waters of the U.S., NAMO fully supports the Physical 
Oceanographic Real Time System, or PORTS, technology in 
conjunction with AIS as the most multidimensional information 
station available to guide vessels through commercial hubs and 
byways. It is the experience of those NAMO members that have 
responded that the NOS expertise and capabilities with PORTS is 
very good. However, NAMO believes that the funding mechanisms 
are prejudicial by nature and, therefore, should be provided 
from the general Treasury.
    PORTS technology builds on a water level gauge information 
network, which is also managed by NOAA, but traditionally 
funded from the Treasury. Water level information, which is now 
viewed free of charge on line, is actively used for 
environmental predictions and fisheries management, as well as 
navigating. Yet only the localities that can find the large sum 
of money to pay NOAA for a PORTS station will get a PORTS 
station. Perhaps it was once thought that a PORTS station would 
pay for itself through additional business. However, PORTS has 
not proven to make a port more competitive, just safer.
    The current requirement for a port or maritime organization 
to find a million dollars for a PORTS station excludes many 
deserving areas because of the cost itself. But what of those 
areas that are essentially byways rather than a central port? 
What local organization can take responsibility to acquire a 
PORTS station for a dangerous reach of a river that has no 
local port attached? Where will the funding be accumulated? 
What about a busy fishing inlet outside of a port authority 
jurisdiction? They, too, deserve the most advanced 
oceanographic real-time data with which to navigate. PORTS is a 
basic safety feature that corresponds with the Federal 
Government's MTS initiative.
    NAMO asks that the Committee view PORTS as an essential 
safety feature of every important navigation channel in the 
United States. We would also ask that NOS ensure that the basic 
water level gauge network in the United States be tended to as 
well and not overlooked. The congressional Great Lakes Task 
Force is asking for 2 million in NOAA appropriations to upgrade 
basic water level gauges to real-time information 
reporting.What is the condition of gauges around the rest of 
the country?
    Since the inception of MTS there have been associated 
discussions about the "cost of MTS." rather than view MTS as 
this lofty new ideal, we would like NOS to see it as a 
collection of immediate needs. PORTS, gauge station upgrades 
and updated accessible nautical charts are small immediate 
needs that will go a long way to making our critical navigation 
areas safer and U.S. trade more efficient and competitive. We 
believe that funding these types of navigation services from 
the Treasury or even considering the harbor maintenance trust 
is appropriate, particularly when it comes to PORTS.
    Mr. Chairman, you specifically asked us to address how NOAA 
programs relate to the Marine Transportation System initiative. 
NOS programs, in particular, are absolutely most intimately 
tied to the promotion of a safe and productive maritime 
transportation system, and we commend NOAA for its leadership 
role in MTS. NAMO believes that there should be much more 
emphasis on ways to improve the system now. We also believe 
that much more work should be done toward intra- or interagency 
coordination of maritime-related programs.
    NOAA has initiated a leadership in MTS with Coast Guard and 
the U.S. Maritime Administration. This is appropriate and 
welcome. An important goal of MTS is to have an active and 
positive information exchange and working relationship between 
government and industry. We have found the Navigation Service 
Office of NOS to be very interested in working closely with 
industry. We ask NOS, however, to also ask the same of their 
other divisions, such as the Office of Ocean and Coastal 
Resource Management.
    NAMO members are responsive to the need to coordinate 
vessel operations with natural resource interests such as the 
right whale migration on the U.S. East Coast or the need for 
ballast water treatment. We have been surprised to find, 
however, that working together is not always an option for the 
sanctuary interests in NOS. We are respectful of agency 
regulations and requirements and the environment, but would 
rather work together for viable navigation options as it only 
proves more productive in the short term and certainly better 
for long-term planning. It is important that these day-to-day 
maritime transportation issues be actively resolved for a 
better MTS.
    The Hydrographic Services Act of 1998 has been helpful in 
bringing NOS to the forefront in recent years. We have to thank 
Members of Congress and your well-informed Committee staff 
members who have facilitated much of these strides. It is now 
time to thoroughly review the next step.
    NAMO believes it is entirely appropriate to create an NOS 
industry working group, if not a formal advisory Committee, to 
prioritize programs and better understand the associated 
funding needs. We do not want NOS requirements to fall through 
the cracks because of a piecemeal approach. NAMO has an 
extraordinary pedigree of members with a day-to-day interest in 
the development of NOS programs and would be pleased to 
participate in such a group.
    Thank you again for the opportunity to provide comments and 
we are pleased to take any questions you may have. Thank you.
    Mr. Gilchrest. Ms. Brohl, thank you very much.
    [The prepared statement of Ms. Brohl follows:]

    Statement of Helen A. Brohl, President, National Association of 
                         Maritime Organizations

    Chairman Gilchrest and Members of the Fisheries Conservation, 
Wildlife and Oceans Subcommittee, I thank you for the opportunity to 
participate in the reauthorization hearing of the Hydrographic Services 
Improvement Act of 1998 and your interest in navigation services in the 
United States.
    My name is Helen A. Brohl. I am here today representing the 
National Association of Maritime Organizations (NAMO) which is 
comprised of 17 shipping associations and maritime exchanges from all 
four seacoasts of the United States: Chicago to New Orleans, Seattle to 
Hampton Roads, LA to New York. [Membership list at end of statement.] 
As the executive director of the U.S. Great Lakes Shipping Association 
- itself a NAMO member - I am currently serving a two-year term as NAMO 
president. NAMO's membership brings together an important component of 
commercial maritime in the United States - that which is concerned 
about issues directly or indirectly impacting the safe and efficient 
navigation of vessels into and through U.S. waters. Navigation services 
under the National Oceanic and Atmospheric Administration's National 
Ocean Service (NOAA/NOS) division directly impacts our operational 
interests in the safe and efficient navigation of commercial vessels.
    As a young Sea Grant Fellow with a staff position on the old House 
Oceanography Subcommittee handling budget review for NOAA's Coast 
Survey, I recall that the program received very little attention and 
consideration. Industry was not standing in the wings 17 years ago. I 
am proud to say that I am here representing an organization that 
testified at the 1998 hydrographic services hearing and helped raise 
awareness and funding for up-to-date charts of our navigable waters and 
NOAA's role in navigation services programs. We thank the many 
Congressional advocates who have turned around this important program 
and allow us today to talk about continuing and expanding on the 
successes of the past few years.
    The Hydrographic Services Improvement Act of 1998 specifically 
spells out hydrographic responsibilities of the Administrator of NOAA. 
We believe that the National Ocean Service, as the implementing arm for 
the Administrator for these responsibilities, has fulfilled that 
mandate very well and lived up to the increased financial support. We 
have had experiences, however, where other functions under NOS have 
been in conflict with their effort to work productively with maritime. 
This may be resolved in the spirit of the Marine Transportation System 
initiative. We also believe that it may be time for NOS to review their 
goals and priorities with industry input.
    NOAA has successfully expanded and improved its ability to acquire 
and disseminate hydrographic data with the additional funding from 
recent years. It is NAMO's understanding that the NOAA versus private 
surveying contractor relationship for accumulation of data has been 
streamlined and is quite successful. As you may know, there are 500,000 
square nautical miles of navigationally significant waters in the 
United States - which is about 300 years of work. Getting to the survey 
``backlog'' has been a successful appropriations priority. We are 
pleased with this success but NAMO has always been just as concerned 
for the dissemination aspect of their mandate which has not received 
equal support. This is partly the fault of industry for not asking the 
right questions during the appropriations process and NOAA not making 
this need clear enough. Data collection is important - but only 
valuable - as it contributes to updated and accessible nautical charts 
whether electronic or paper.
    We believe it is imperative that a thorough examination of chart 
dissemination based upon the needs of industry be organized by NOS with 
industry participation. This would include the role of electronic 
charts, raster charts, paper charts and mechanisms for access on 
demand. We would expect that electronic navigation charts (ENC's) will 
be the most efficient way to provide virtually real-time chart data to 
the consumer - whether it be through professional navigation system 
operations such as ECDIS, in conjunction with automatic information 
systems (AIS) or via the home computer. Yet, we cannot emphasize enough 
that there is still the very real and immediate need for updated paper 
charts.
    The U.S. Coast Guard under 33 CFR 164.33-164.41 states that no 
person may operate or cause the operation of a self-propelled vessel of 
1600 or more gross tons without an updated marine chart of the U.S. 
waters in which it sails, excepting innocent passage. It is still the 
practice on commercial cargo vessels that a NOAA paper chart of those 
waters is kept on the bridge. The paper chart provides a readily 
accessible and broad view of those waters. It also allows the mariner 
to make written notations from the ``Local Notice to Mariners.'' This 
is essential since it is rare that charts are updated to that moment of 
use. In fact, many of the paper charts are woefully outdated. The Coast 
Guard hand of government is mandating the use of outdated charts from 
the NOAA hand of government. Isn't this a job for MTS?
    New data is often already in the NOS database but not getting to 
the consumer because of low funding. This, of course, impacts any form 
of nautical chart. But again we remind the distinguished committee 
members that mariners will continue using paper charts as long as lap 
top computers don't fit into the outboard fishing boat or AIS 
transponders are not yet integrated into a vessel's technology or there 
is no Physical Real Time Oceanographic System in every reach of our 
navigable waters.
    NOAA has been wrestling with the issue of ``print on demand'' 
charts for a number of years. It was once proposed that there be a 
central phone number that could be called and for a very small fee - 
less than $20.00 - a newly-printed chart based upon data at the moment 
would be overnight expressed to the customer. Naturally, chart agents 
objected to this idea. There was also a real attempt to get chart 
agents to have plotters in the local store which could link to NOAA 
data and print the most updated chart on demand. It is our 
understanding that only the more expensive plotters produced the best 
charts but were too expensive for the average chart sales agent. NAMO 
would like to see NOAA continue and accelerate their investigation into 
the subscription program which would automatically provide chart 
updates whether by paper or computer disk. We don't care if those 
updates go to the chart agent (as long as the cost remains reasonable) 
or directly to the ship agent but we need updated paper charts sooner 
than later and don't want the excitement of electronic charting to put 
that effort aside nor do we want to hinder work toward free and 
accessible electronic charts.
    NOAA needs considerably more funding to pursue electronic 
navigation charting, raster charts and paper charts and to incorporate 
the advancing technologies associated with providing updated nautical 
charts to the commercial or recreational maritime community. It is our 
understanding that NOAA works with the U.S. Coast Guard and the U.S. 
Army Corps of Engineers to receive new data. It is our experience that 
the Corps of Engineers is often providing obstruction and sounding 
information in digital format. However, we do not know if this is 
standard from Corps district to district or if all Corps offices are 
regularly sending any information at all. This was an issue in the 
Great Lakes which is resolved because of industry intervention. What of 
other areas around the country?
    Obviously, information transfer is essential for all key commercial 
navigation areas. For example, port authorities work very hard to get 
Corps of Engineers funding to dredge their port area. If the post-
dredge soundings do not get to NOAA in Silver Spring, MD for updating 
of the local chart, it is as if the port was never dredged. We can 
quote you vessel masters who live by the chart in front of them, not 
what the pilot on board may believe is there from experience. Whether 
it's Duluth or Hampton Roads, even inches of additional under keel 
clearance matter when loading cargo. Who is reminding the Corps of 
Engineers to request proper support for their digital information 
development and ensuring that their information is directed in the best 
format possible to NOS? Sounds like a classic case for MTS!
    We must commend NOAA for taking the initiative with being deeply 
involved with the development and adoption of standards that will stand 
up within the international community. NOS has an active and lead role 
with the International Hydrographic Organization and actively 
participates with the International Maritime Organization to ensure 
that the both the national interests and the real needs of the mariner 
are brought together. We believe that NOAA's expertise in hydrographic 
data standardization, collection and dissemination rivals that of any 
other country in the world.
    Just as the creation of updated charts is of the utmost importance 
to the safe passage of commercial cargo vessels through the navigable 
waters of the United States, NAMO fully supports the Physical 
Oceanographic Real Time System or PORTS technology in conjunction with 
AIS as the most multi-dimensional information station available to 
guide vessels through commercial hubs and by-ways. It is the experience 
of those NAMO members that have responded that the NOS expertise and 
capabilities with PORTS is very good. However, NAMO believes that the 
funding mechanisms are prejudicial by nature and therefore, should be 
provided from the general treasury.
    PORTS technology builds on water level gauge information which is 
also managed by NOAA but traditionally funded from treasury. Water 
level information - which can now be viewed free of charge online - is 
actively used for environmental predictions and fisheries management as 
well as navigating. Yet, only the localities that can find a large sum 
of money to pay NOAA for a PORTS station, get to have a PORTS station. 
Does a city ask its citizens to create a coalition, come up with a 
design and find a funding source in order to put a stop light at a busy 
intersection? That stop light is funded from the local tax treasury 
because it is essential for the safety of the citizens. Perhaps it was 
once thought that a PORTS station would pay for itself through 
additional business. However, PORTS has not proven to make a port more 
competitive, just safer.
    The current requirement for a port or maritime organization to find 
a million dollars for a PORTS station excludes many deserving areas 
because of the cost itself but what of those areas that are essentially 
by-ways rather than a central port? What local organization(s) takes 
responsibility to acquire a PORTS station for a dangerous reach of a 
river that has no local port attached? What about busy fishing inlets 
outside of a port authority jurisdiction? They too deserve the most 
advanced oceanographic real-time data with which to navigate. PORTS is 
a basic safety feature that corresponds with the Federal Government's 
MTS initiative. NAMO asks the Committee to view PORTS as an essential 
safety feature of every important navigation channel in the United 
States.
    The federal agency presentations at MTS briefings show pictures of 
bigger ships and congested ports which in our perspective doesn't mean 
spend billions of dollars, taking many, many years to dredge as deep as 
you can go. It means we need to install PORTS stations and any other 
navigation safety technology available in critical areas to address 
this congestion now including making sure that the many basic water 
level gauge stations around the country are in good shape and providing 
real-time data. It is a penny-wise choice. But if the relatively small 
investment still scares you, why not allow the use of Harbor 
Maintenance Trust Funds? An authorization of even $6 million per year 
for new builds might allow two or three PORTS stations to go on-line 
each year and the upgrade of a large number of solo water level gauge 
stations. We would have to ask NOS, but its possible that the total 
cost for maintenance of all existing PORTS stations might be less than 
$2 million per year.
    Since the inception of MTS, there has been associated discussions 
about the ``cost of MTS.'' Rather than view MTS as this lofty, new 
ideal, we would like NOS to see it as a collection of immediate needs. 
PORTS, gauge station upgrades, and updated, accessible nautical charts 
are a small immediate need that will go a long way to making our 
critical navigation areas safer and U.S. trade more efficient and 
competitive. Allow us to remind you that it is the trade associated 
with waterborne transportation that provides billions in Customs 
revenue each year. We believe that funding these types of navigation 
services from the treasury or the Harbor Maintenance Trust is a 
reasonable request.
    Chairman Gilchrest specifically asked us to address how NOAA 
programs relate to the Marine Transportation System or MTS initiative. 
NOS programs, in particular, are absolutely the most intimately tied to 
the promotion of a safe and productive maritime transportation system 
and we commend NOAA for its leadership role in MTS. NAMO believes that 
there should be much more emphasis on ways to improve the system now. 
We also believe that much more work should be done toward intra or 
inter-agency coordination of maritime related programs. The maritime 
industry is subjected to approximately 127 different user fees from an 
array of federal agencies who do not consult about the total impact of 
these measures. For example, U.S. Customs charges vessels an overtime 
fee for inspections which isn't used for the overtime service of the 
agent who then may not have enough overtime money in the local budget 
to provide an inspection in overtime. Providing Customs inspection at 
the dock is important for promoting trade in the United States. Are 
these day-to-day operational issues part and parcel of the MTS 
initiative? Is there a representative from every agency that charges a 
maritime fee on the MTS Interagency Working Group?
    NOAA has initiated a leadership partnership in MTS with the US 
Coast Guard and US Maritime Administration. This is appropriate and 
welcome. The goal of MTS is to have an active and positive information 
exchange and working relationship between government and industry. We 
have found the navigation services office of NOS to be very interested 
in working closely with industry. We ask NOS to ask the same of their 
other divisions such as the Office of Ocean and Coastal Resource 
Management. NAMO members are responsive to the need to coordinate 
vessel operations with natural resources needs such as with the Right 
Whale migration on the U.S. East Coast or the need for ballast water 
treatment. We have been surprised to find, however, that working 
together is not always an option for sanctuary interests in NOS. We are 
respectful of agency regulations and requirements but would rather work 
together for viable navigation options as it only proves more 
productive in the short term and better for long-term planning. It is 
important that these day-to-day maritime transportation issues be 
actively resolved for a better MTS.
    The Hydrographic Services Act of 1998 has been helpful in bringing 
NOS to the forefront in recent years. We have to thank Members of 
Congress and well-informed committee staff members who have facilitated 
much of these strides. It is now time to thoroughly review the next 
step. NAMO believes it is entirely appropriate to create an NOS-
industry working group if not formal advisory committee to prioritize 
programs and better understand the associated funding needs. We do not 
want NOS requirements to fall through the cracks because of a piece-
meal approach. NAMO has an extraordinary pedigree of members with a 
day-to-day interest in the development of NOS programs and would be 
pleased to participate in such a group.
    Thank you again for the opportunity to participate in the 
Hydrographic Services Act reauthorization hearing. I would be pleased 
to respond to any questions from the Committee.

    Members of the National Association of Maritime Organizations: 
Association of Ship Brokers and Agents; Boston Shipping Association; 
Columbia River Steamship Operators Association; Connecticut Maritime 
Association; Hampton Roads Maritime Association; Jacksonville Maritime 
Association; Marine Exchange of LA/LB Harbor, Inc.; Maritime Exchange 
of Puget Sound; Maritime Association of the Port of Charleston; 
Maritime Association of the Ports of NY/NJ; Maritime Exchange of the 
Delaware River and Bay; Steamship Association of Louisiana; Puget Sound 
Steamship Operators Association; Savannah Maritime Association; South 
Jersey Port Corporation; US Great Lakes Shipping Association; and West 
Gulf Maritime Association.
                                 ______
                                 
    Mr. Gilchrest. Mr. Allen.

STATEMENT OF KURT ALLEN ON BEHALF OF THE MANAGEMENT ASSOCIATION 
         FOR PRIVATE PHOTOGRAMMETRIC SURVEYORS (MAPPS)

    Mr. Allen. Good morning, Mr. Chairman. Thank you for 
letting me have the opportunity to be here today. My name is 
Kurt Allen. I am Division Manager of Greenhorne & O'Mara, based 
locally here in Greenbelt, Maryland. I am testifying today on 
behalf of MAPPS. It is our national association of more than 
150 private firms engaged in a variety of mapping-related 
activities.
    We would like to commend the Subcommittee for its 
leadership in creating the hydrographic surveying contracting 
program in NOAA. This Subcommittee, together with the Commerce 
Appropriations Subcommittee, has for the last 7 years provided 
the leadership that has long been needed to make the changes 
necessary in NOAA that benefit the American taxpayer, the 
boating community, and the private surveying and mapping 
profession. We also would like to commend NOAA for the new 
direction it has begun with regard to the utilization of the 
private sector for hydrographic surveying, shoreline mapping, 
aerial photography, height modernization and airport surveys.
    We believe NOAA's move toward contracting has been very 
successful. Private firms have been able to provide innovative 
staffing, scheduling and deployment to ensure that the 
government receives value for its money.
    With a significant national backlog in critical ports 
requiring hydrographic surveys, MAPPS fully supports budget 
increases for this program. This backlog forms a strong basis 
for the increased use of the private sector for the conduct of 
hydrographic surveys and for the NOAA Corps officers and 
civilians to be refocused on inherently government activities 
such as contract administration and quality control.
    However, there are still a number of qualified private 
firms, including those experienced in providing hydrographic 
services and other mapping activities, that can be utilized to 
further enhance the capabilities of NOAA. We believe NOAA 
should follow the lead of the Corps of Engineers, the USGS and 
NOAA in relying on the private sector to provide commercially 
available mapping services. We urge the Subcommittee to 
decrease the authorized level for NOAA ownership and operation 
of hydrographic survey vessels. As you know, despite the 
progress that has been made and the leadership exerted by the 
Subcommittee, the NOAA ship survey operation activities remain 
on GAO's list of high-risk programs and continue to be a major 
management challenge and program risk.
    There are capable and qualified private sector mapping 
firms that should be used to a greater extent by NOAA. These 
activities not only include hydrography, but include geodetic 
surveying, aerial photography, remote sensing, photogrammetric 
mapping and the actual production of electronic navigational 
charts.
    We believe NOAA should focus its in-house activities in the 
establishment of professional and technical standards, the 
certification of data, research and development, funding and 
administration of grants and contracts and perform these 
services that are inherently governmental in nature and which 
are not necessarily competitive with the private sector.
    We would urge the inclusion of the following provisions in 
the reauthorization of the Hydrographic Services Improvement 
Act.
    First, that NOAA should be required to use the private 
sector for all commercially available surveying and mapping 
services. NOAA should be mandated to maintain an intellectual 
core capability in hydrography versus a large dollar capital 
capability.
    Also, Congress should provide a more steady stream of 
funding to enhance productivity and efficiency of contractors 
even further. Legislation should require NOAA data 
certification program for electronic navigational charts. We 
regret that NOAA has not utilized the authority it was granted 
in 1998, and we urge the Committee to amend section 304, Public 
Law 105-384, by changing the "may" to "shall" with regard to 
establishing a data certification program and establishing the 
statutory deadline for NOAA to implement a program.
    The cap on funds for in-house NOAA ships should also be 
lowered and revised to include both ownership and operation of 
vessels. MAPPS opposes NOAA's leasing of ships. This strategy 
fails to resolve the issue of unfair government competition and 
fails to take advantage of saving dollars and increased 
efficiency that has been identified by the Inspector General. 
It can also be realized by contracting to firms that have the 
ships, equipment, personnel and expertise to meet NOAA's needs.
    Mr. Chairman and this Committee, I thank you for the 
opportunity to be here.
    Mr. Gilchrest. I think maybe we should have had Mr. Gudes 
on this panel. Thank you, Mr. Allen.
    [The prepared statement of Mr. Allen follows:]

 Statement of Kurt Allen, Greenhorne & O'Mara, Greenbelt, MD on behalf 
  of the Management Association for Private Photogrammetric Surveyors 
                                (MAPPS)

    Mr. Chairman, I am Kurt Allen, Division Manager of Greenhorne & 
O'Mara, Inc. My firm provides a full spectrum of surveying and mapping 
services to the USGS, NIMA, Corps of Engineers, Fish and Wildlife 
Service, among other Federal agencies.
    Our firm is based in Greenbelt, Maryland. I am personally a 
resident of Annapolis. We employ more than 350 persons in Maryland and 
another 350 in offices in North Carolina, Florida, Virginia, 
Pennsylvania, West Virginia and Georgia.
    Let me first commend this Subcommittee for its leadership in 
creating the hydrographic survey contracting program in NOAA in the 
Hydrographic Services Improvement Act. This subcommittee, together with 
the Commerce Appropriations Subcommittee, has for the past 7 years, 
provided the leadership that has long been needed to make the necessary 
changes in NOAA that benefit the American taxpayer, the recreational 
and commercial boating community, and the private surveying and mapping 
profession. We also commend NOAA for the new direction it has begun 
with regard to utilization of the private sector for hydrographic 
surveying, shoreline mapping, height modernization, aerial photography, 
and airport surveys.
    For the services that NOAA has begun contracting to the private 
sector, we believe the agency is highly satisfied. Private firms have 
been innovative in staffing, scheduling and deployment to ensure that 
the government receives value for its money. Currently, almost all the 
NOAA hydrographic contractors are MAPPS member firms.
    Our members in the hydrographic program believe the professional 
relationship that has been established and the development of new tools 
and techniques for efficient acquisition and processing of hydrographic 
data in support of nautical charting is beneficial to both NOAA and the 
private sector, and to the nation as a whole. With the significant 
national backlog in critical areas requiring hydrographic surveys, 
MAPPS fully supports the need to expand budget allocations for this 
program. This backlog forms a strong basis for the increased use of the 
private sector for the conduct of hydrographic surveys, and for the 
NOAA Corps officers and civilians to be refocused on inherently 
governmental activities such as in contract administration and quality 
control.
    The critical expertise in hydrography resident within NOAA can be 
of significant assistance to the private sector in the form of 
necessary standardization, certification, quality control and contract 
administration.
    However, there are still a number of qualified private firms, 
including those experienced in performing hydrographic services for the 
Corps of Engineers in its inland waterways program, that have not been 
selected for contracts by NOAA. Mr. Chairman, there is additional 
private sector capacity and capability that could be utilized to 
further enhance the capabilities of NOAA.
    We would urge the Subcommittee to decrease the authorized level for 
NOAA ownership and operation of hydrographic survey vessels. As you may 
know, despite the progress that has been made, and the leadership 
exerted by this Subcommittee, the NOAA survey ship operation activities 
remain on the General Accounting Office list of high risk programs, and 
as recently as January of this year, continues to be a major management 
challenge and program risk in the Department of Commerce. GAO found, 
``NOAA continues to rely heavily on its in-house fleet and still plans 
to replace or upgrade some of these ships. Consequently, continued 
oversight of NOAA's plans to replace or upgrade ships will be needed to 
ensure that NOAA is pursuing the most cost-effective alternatives for 
acquiring marine data.'' (GAO-01-243, Commerce Challenges, January 
2001)
    NOAA can stretch its dollars in the production of nautical charts 
to support commerce and ensure safe navigation by transforming itself 
into an organization that performs only those services that are 
inherently governmental in nature. It should not be expending funds for 
in-house performance of commercially available mapping activities.
    There is a capable and qualified private sector in mapping that can 
and should be used to a greater extent by NOAA. These activities 
include not only hydrography, but geodetic surveying, aerial 
photography, remote sensing, and photogrammetric mapping, and the 
actual production of electronic navigational charts (ENCs).
    We believe NOAA should focus its in-house activities on the 
establishment of professional and technical standards, certification of 
data, research and development, funding and administration of grants, 
and to perform those services that are inherently governmental in 
nature and which are not competitive with the private sector.
    We would urge the inclusion of the following provisions in the 
reauthorization of the Hydrographic Services Improvement Act:
    <bullet>  NOAA should use the private sector for all commercially 
available surveying and mapping services. This is not only required by 
OMB policy (SEE OMB Circular A-76), but by language in the fiscal year 
96 Commerce Appropriations bill. It should be noted that NOAA has still 
not completed a fully inventory of all its commercial mapping 
activities, as it is required to do by the Federal Activities Inventory 
Reform (FAIR) Act, Public Law 105-270);
    <bullet>  NOAA should maintain an ``intellectual'' core capability 
in hydrography, versus a large dollar capital capability;
    <bullet>  NOAA should provide a more steady stream of funding to 
enhance the productivity and efficiency of contractors even further; 
and it should strive to improve its contract management capability.
    <bullet>  A NOAA data certification program for Electronic 
Navigational Chart data, and the S-57 format, is needed for private 
sector firms. We would urge the Committee to amend section 304 of PL 
105-384 by changing the ``may'' to ``shall'' with regard to 
establishing a data certification program and establishing a statutory 
deadline for NOAA to implement such a program. We regret that NOAA has 
not utilized the authority it was granted in 1998.
    <bullet>  The cap on funds for in-house NOAA ships should be 
lowered, and revised to include both ownership and operation of 
vessels. MAPPS opposes NOAA's leasing of ships. This strategy fails to 
resolve the issue of unfair government competition, and fails to take 
advantage of the saving of dollars and increased efficiency identified 
by the Inspector General, that could be realized by contracting to 
firms that have the ships, equipment, personnel and expertise to meet 
NOAA's needs.
    <bullet>  The expansion of private sector utilization for 
photogrammetry, geodesy, remote sensing, aerial photography and other 
commercially available geospatial activities is both welcomed and 
encouraged.
    Mr. Chairman, I thank you and your subcommittee for the opportunity 
to appear before you today.
                                 ______
                                 
    Mr. Gilchrest. Mr. Hamons, welcome.

    STATEMENT OF FRANK HAMONS, MANAGER, HARBOR DEVELOPMENT, 
                  MARYLAND PORT ADMINISTRATION

    Mr. Hamons. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify before this Committee today. I do think 
that while recognizing the seriousness of the situation that we 
have faced in recent days, continuing with business is a 
necessity in order that those who perpetrated this do not get 
what they want out of it.
    Mr. Gilchrest. Thank you very much.
    Mr. Hamons. Mr. Chairman, members of the Committee, I am 
Frank Hamons, Manager of Harbor Development at the Maryland 
Port Administration, Chairman of the American Association of 
Port Authorities' Harbors, Navigation and Environment 
Committee. Founded in 1912, AAPA is an association of 160 
public port authorities in the United States, Canada, Latin 
America and the Caribbean. My testimony today reflects the 
views of AAPA's United States delegation.
    AAPA port members are public entities, divisions or agents 
of the State and local governments mandated by law to serve 
public purposes. Public port authorities are charged with 
developing port facilities, facilitating waterborne commerce 
and promoting economic development.
    The success of U.S. international trade depends on a viable 
and safe navigation system. Without modern navigational tools, 
the United States cannot move cargo that is important to the 
U.S. economy through ports without compromising safety or 
threatening the environment. For these reasons, reauthorization 
of the Hydrographic Services Improvement Act is a priority--
must be a priority.
    AAPA has consistently advocated for increased funding for 
navigational services provided by the National Oceanic and 
Atmospheric Administration. Safety systems, such as PORTS, that 
provide valuable navigation information should be provided for 
all U.S. ports, not simply to those who can afford it. And I 
speak of one port that is installing this system right now--is 
in the process, and we should have an agreement signed probably 
by late October, perhaps early November, to do so. One of those 
ports can proceed with this, but we are recognizing that all 
ports need this service.
    Safety should not be a matter of choice, but of necessity. 
It is also the view of the Marine Navigation Safety Coalition, 
a coalition of over 40 industry groups representing various 
aspects of the Nation's marine transportation system, formed to 
promote the importance of funding NOAA's navigation services 
programs as authorized under the Hydrographic Services 
Improvement Act.
    Today, mariners transiting U.S. waters are forced in many 
locations and many situations to rely on outdated navigation 
charts and tidal predictions produced by the National Oceanic 
and Atmospheric Administration. In fact, over the past 10 years 
or more, NOAA has been forced to withdraw tide and current 
predictions at several major ports, including the Port of New 
York and New Jersey due to insufficient and outdated 
information.
    The San Francisco chart was also withdrawn in 1991, and 
more are expected to be pulled since 50 percent of them are 
based on observations over 50 years old.
    I would say that we at the Port of Baltimore and Chesapeake 
Bay are being served very well right now by NOAA. They are 
doing a lot of hydrographic surveying in our area.
    But to give you an indication of the type of problem that 
is faced, some of the information that was recently replaced 
within the past year was almost reaching its centennial 
anniversary when the resurveying occurred. It was 99 years old. 
So it gives you an idea of what is on some of the charts.
    As I say, we are being served right now--the resurveying is 
under way, and that is great for us, but for those who are 
still dealing with this data around the country, it is a real 
problem.
    Compounding these problems is the rapid growth of traffic 
on U.S. waters. Waterborne commerce has tripled since 1947. The 
U.S. Department of Transportation projects that it will triple 
again over the next 3 decades. Electronic navigation charts are 
the new standard for safe navigation of vessels and are the 
base ingredient or visual backdrop for collision avoidance 
systems, such as the Electronic Chart Display and Information 
System and the United States Coast Guard proposed Automated 
Identification System. These complementary systems are designed 
to prevent accidents and spills by alerting the mariner of a 
potential grounding in enough time for the mariner to take 
corrective action. Despite the importance of integrating ENCs 
for use within the maritime industry, NOAA has not received the 
necessary funding over the years to bring them on line.
    Another important NOAA navigational tool is the Physical 
Oceanographic Real Time System, or PORTS. With accurate real-
time information and modern forecasts, ships can safely adjust 
loads to use available draft margins. Despite the success of 
this program and enhancing safety and improving efficiency of 
vessel movements in international trade, PORTS has only been 
available to a small number of commercial harbors. Those 
fortunate few are paying for its operation and maintenance, and 
those wishing to install a new system must pay for this as 
well.
    In the case of Maryland, we are--Port of Baltimore, we are 
150 miles from the ocean, southern approach; the northern 
approach, we are 112 miles from the ocean. We have 126 miles of 
dredged channel in these various systems. It is invaluable to 
be able to project, as you start, where you are going to go and 
what the conditions are going to be when you get there and then 
verify it en route. This is an invaluable service.
    Over the years, Federal funding for the PORTS system has 
been meager at best, and in fiscal year 2000 was nonexistent. 
This year for the first time we may see a bigger jump in 
funding thanks to the support of this Committee. However, the 
tides and currents line item that funds PORTS has never 
received the annual $22 million outlined in the Hydrographic 
Services Improvement Act of 1998.
    We urge the Committee to continue its push for the 
necessary funds and the reauthorization of the Hydrographic 
Services Act to guarantee that NOAA can continue to provide the 
quality assurance and infrastructure necessary to keep existing 
ports in operation and enable other ports to install PORTS.
    Further, AAPA believes the Federal Government should pay 
for not only design and quality assurance, but also the 
installation and maintenance of the PORTS system to ensure a 
uniform state-of-the-art national program. Beyond the need to 
secure additional funding for NOAA's suite of navigation 
services, reauthorization of the Hydrographic Services Act 
presents other opportunities to improve on these services. The 
1998 bill required that within 6 months of enactment, NOAA and 
the U.S. Coast Guard was supposed on submit a report to 
Congress on the status of real-time tide and current data 
systems and U.S. ports, existing safety and efficiency needs in 
U.S. ports that could be met by increased use of these systems, 
and provide a plan for expanding PORTS to enhance safety needs.
    NOAA did submit two reports to Congress. However, these 
reports did not go far enough in examining the current needs of 
the maritime industry and outlining NOAA's long-range plan for 
addressing these needs.
    AAPA suggests that before any new recommendations or plans 
are made with regard to the future of NOAA navigation programs, 
a more comprehensive report should be completed. National Ocean 
Service should be charged with developing a long-range 
strategic plan for addressing these recommendations.
    Also, AAPA believes the National Ocean Service should 
develop a stakeholder advisory group to provide guidance, 
expertise and direction on navigation safety issues, as well as 
consultation on a comprehensive review of the needs of the 
industry.
    Finally, the bill should direct the various Federal 
agencies that have jurisdiction over navigation safety, such as 
NOAA, the U.S. Coast Guard and U.S. Army Corps of Engineers, to 
better coordinate their efforts to eliminate duplication of 
efforts and maximize limited resources. AAPA believes this 
cooperation will lead to better services for the maritime 
industry.
    Overall, the goal of the Hydrographic Services Improvement 
Act, 1998 was to focus attention on improving the 
infrastructure of the Nation's navigation system and to provide 
the framework for catching up with the survey backlog and 
modernizing navigation operations. Though it authorized 
significant funding to improve NOAA's navigation services, the 
administration has never requested nor has Congress 
appropriated these higher funding levels.
    The bill was a positive first step toward raising awareness 
for navigation safety. However, we have a long way to go. 
Safety programs such as PORTS should not be an option for those 
who can afford it, but a national priority funded by the 
Federal Government. It must be a Federal priority to maintain 
our Nation's waterways, to provide the necessary tools to allow 
mariners to do their jobs, and to facilitate the commerce that 
provides significant economic benefits to our Nation.
    [The prepared statement of Mr. Hamons follows:]

 Statement of Frank Hamons, Manager, Harbor Development, Maryland Port 
   Administration and, Chairman of the American Association of Port 
     Authorities, Harbors, Navigation and the Environment Committee

    Good morning. I am Frank Hamons, Manager of Harbor Development at 
the Maryland Port Administration and Chairman of the American 
Association of Port Authorities' Harbors, Navigation and the 
Environment Committee. Founded in 1912, AAPA is an association of 160 
public port authorities in the United States, Canada, Latin America and 
the Caribbean. In addition, the Association represents almost 300 
sustaining and associate members, firms and individuals with an 
interest in the seaports of the Western Hemisphere. My testimony today 
reflects the views of AAPA's United States delegation.
    AAPA port members are public entities, divisions or agents of State 
and local government mandated by law to serve public purposes. Public 
Port Authorities are charged with developing port facilities, 
facilitating waterborne commerce, and promoting economic development. 
Ports are key to this nation's ability to trade internationally, 
providing American consumers and businesses with the choices they 
demand for worldwide products and markets. Ports provide this 
connection to the world by handling 95 percent of all U.S. overseas 
trade by weight, and 75 percent by value.
    The success of U.S. international trade depends on a viable and 
safe navigation system. Without modern navigational tools, the United 
States cannot move cargo that is important to the U.S. economy safely 
and efficiently through ports. In addition, with an increase in the 
number of larger, deep draft vessels, the United States cannot afford 
to compromise safety or threaten the environment. For all of these 
reasons, reauthorization of the Hydrographic Services Improvement Act 
must be a priority.
    AAPA has consistently advocated for increased funding for 
navigation services, including mapping and charting, tides and currents 
and Physical Oceanographic and Real-Time Systems (PORTS) provided by 
the National Oceanic and Atmospheric Administration (NOAA). Providing 
adequate resources to maintain modern and accurate navigation services 
must be a national priority because these programs provide critical 
environmental protection and safety tools to all waterway users and 
enhance the efficiency of international trade. Safety systems such as 
PORTS that provide valuable navigation information should be provided 
for all U.S. ports and not simply to those that can afford it. Safety 
should not be a matter of choice but of necessity.
    That is also the view of the Marine Navigation Safety Coalition, a 
coalition of over 40 industry groups representing various aspects of 
the nation's Marine Transportation System, including marine pilots, 
maritime exchanges, cargo and vessel owners, rail and terminal 
operators, and ports. The Coalition, coordinated by AAPA, was formed 
four years ago to promote the importance of funding NOAA's navigation 
services programs as authorized under the Hydrographic Services 
Improvement Act.
Background
    Today mariners transiting U.S. waters are forced, in many 
situations, to rely on out-dated navigation charts and tidal 
predictions produced by the National Oceanic and Atmospheric 
Administration (NOAA). A large percentage of depths shown on NOAA 
charts are based on surveys that were conducted over 50 years ago. In 
fact, a number of deep draft ships that travel through U.S. waters are 
relying on charts with depths that were determined by the use of lead 
lines prior to World War II. Over the past ten years or more, NOAA has 
been forced to withdraw tide and current predictions for several major 
ports, including the Port of New York and New Jersey, due to 
insufficient and outdated information. The San Francisco chart also was 
withdrawn in 1991 and more are expected to be pulled, since 50 percent 
of them are based on observations over 50 years old.
    Ships routinely pass within a few feet of the bottom when entering 
and transiting our nation's coastal and inland waterways. A single 
impediment such as an uncharted rock, an old concrete buoy block, or 
the fluke of an abandoned anchor has the potential to puncture the hull 
of a ship. The environmental damage from such an accident can be 
measured in billions of dollars.
    Compounding these problems is the rapid growth of traffic on U.S. 
waters. Waterborne commerce has tripled since 1947. The U.S. Department 
of Transportation projects that it will triple again over the next 
three decades. The number of recreational boaters has nearly doubled 
since 1970, crowding already overflowing harbors.
    Electronic Nautical Charts (ENC) are the new standard for safe 
navigation of vessels and are the base ingredient or visual backdrop 
for collision avoidance systems such as the Electronic Chart Display 
and Information System (ECDIS) and the United States Coast Guard's 
proposed Automated Identification System (AIS). These complementary 
systems are designed to prevent accidents and spills by alerting the 
mariner of a potential grounding in enough time for the mariner to take 
corrective action. Creating an ENC is not simply a matter of converting 
the paper chart data to an electronic format, since most of the chart 
data was collected using positioning methods that predate Global 
Positioning System. NOAA is recollecting position-critical data using 
geodesy and aerial imagery on critical chart features such as petroleum 
docks, ferry terminals and aids to navigation to enable mariners to 
safely navigate vessels in constricted waterways and in times of 
limited visibility. Unfortunately, despite the importance of 
integrating ENCs for use within the maritime industry, NOAA has not 
received the necessary funding over the years to bring them on line.
    Another important navigational tool NOAA has developed is the 
Physical Oceanographic Real-Time System (PORTS). With accurate, real-
time information and modern forecasts, ships can safely adjust loads to 
use available draft margins. PORTS allows ships--berthed or under way--
to access real-time data from a variety of instruments that measure 
currents, winds and waves, water levels (tides), depths, temperatures, 
and salinity. Despite the success of this program in enhancing safety 
and improving the efficiency of vessel movements and international 
trade, PORTS has only been available to a small number of commercial 
harbors. Those fortunate few are paying for its operation and 
maintenance and those wishing to install a new system must pay for this 
as well.
    The data available from PORTS enables much more accurate tide and 
current predictions, thus reducing travel delays and increasing 
traffic-handling capabilities. Many of this country's export products 
are price-sensitive commodities. Because shipping contracts can hinge 
on a few tenths of a cent per bushel of grain or ton of coal, 
transportation costs can be the deciding factor for foreign buyers 
choosing between American or foreign bulk products. Maximizing the use 
of channel depths is an important factor in the efficiency of 
waterborne commerce. PORTS systems are also instrumental in preventing 
and responding to spills of hazardous materials and oil, predicting 
coastal floods and conducting scientific research. The success of PORTS 
in Tampa Bay, Florida, New York-New Jersey, San Francisco, Houston and 
the Chesapeake Bay is fueling interest in the establishment and 
expansion of these systems at other harbors around the country.
    Without PORTS, true depth, rise in tide and on-site wind and 
channel current information is not readily available. Furthermore, as 
trade and vessel operations increase, harbors that do not have this 
system will have trouble handling the increasing volume of traffic at 
the same level of safety as they do today. It has become clear that at 
a number of ports, the PORTS program is no longer an enhancement but a 
necessity for many groups, including but not limited to pilots, vessel 
operators, shippers, the U.S. Coast Guard and port authorities. With no 
other tool to accurately monitor these conditions, significant safety 
and environmental risks could result.
    There is another important contribution that PORTS makes to 
safeguarding the coastal environment. On July 5, 2000, an accident 
occurred in which a tugboat towing an oil barge punctured a hole in the 
hull of the barge, thus causing an oil spill in the Narragansett Bay. 
Less than two weeks prior, Rhode Island celebrated the installation of 
PORTS in the Narragansett Bay area, and it is a good thing the system 
was in place. With PORTS up and running, Rhode Island's Department of 
Environmental Management worked with NOAA and other agencies to contain 
the oil spill by predicting how the slick would move as a result of the 
current, wind and tides. PORTS was instrumental in minimizing the 
environmental impact from this accident and, no doubt, saved a great 
deal in clean up costs.
    Over the years, Federal funds for the PORTS system have been meager 
at best, and in fiscal year 2000 were non-existent. This year, for the 
first time, we may see a bigger jump in funding thanks to the support 
of this Committee; however, the Tides and Currents line item that funds 
PORTS has never received the annual $22 million outlined in the 
Hydrographic Services Improvement Act of 1998. PORTS must receive a 
stronger financial commitment from the Administration and Congress to 
ensure a nationally viable program. We urge the Committee to continue 
its push for the necessary funds in the reauthorization of the 
Hydrographic Services Act to guarantee that NOAA can continue to 
provide the quality assurance and infrastructure necessary to keep 
existing PORTS in operation and enable other harbors to install PORTS. 
Further, AAPA believes that the Federal government should pay for not 
only design and quality assurance, but also the installation and 
maintenance of PORTS systems to ensure a uniform, state-of-the-art 
national program.
Recommendations
    Beyond the need to secure additional funding for NOAA's suite of 
navigation services, reauthorization of the Hydrographic Services Act 
presents other opportunities to improve on these services. The 1998 
bill required that within six months of enactment, NOAA and the USCG 
were supposed to submit a report to Congress on the status of real-time 
tide and current data systems in U.S. ports, existing safety and 
efficiency needs in U.S. ports that could be met by increased use of 
those systems and provide a plan for expanding PORTS to enhance safety 
needs. NOAA did submit two reports to Congress; however, these did not 
go far enough in examining the current needs of the maritime industry 
and outlining NOAA's long-range plan for addressing these needs. AAPA 
suggests that before any new recommendations or plans are made with 
regard to the future of NOAA navigation programs, a report should be 
completed that includes a comprehensive review of the status of these 
programs, the needs of the maritime industry, and recommendations for 
the most cost-effective and efficient means for addressing these 
issues. This study should be fully coordinated with the maritime 
industry. Once it is completed, the National Ocean Service (NOS) should 
be charged with developing a long-range strategic plan for addressing 
these recommendations.
    AAPA believes that the National Ocean Service should develop a 
stakeholder advisory group to get feedback and direction from the 
private sector. With the growth of international trade over the next 
twenty years, safety will become an even greater priority. In planning 
to meet the needs of the maritime industry, NOS should establish this 
advisory group to provide guidance, expertise, and direction on 
navigation safety issues as well as consultation on a comprehensive 
review of the needs of the industry.
    Finally, the bill should direct the various Federal agencies that 
have jurisdiction over navigation safety, such as NOAA, the U.S. Coast 
Guard and the Army Corps of Engineers, to better coordinate their 
efforts to eliminate duplication of efforts and to maximize limited 
resources. The 1999 Marine Transportation System (MTS) Report, An 
Assessment of the U.S. Marine Transportation System, identifies the 
greatest safety concern among stakeholders as the Aavailability of 
timely, accurate, and reliable navigation information.'' Therefore it 
suggests that NOAA work in conjunction with the Army Corps of Engineers 
and the Coast Guard as well as local communities to design, develop and 
install appropriate Physical Oceanographic Real-Time Systems (PORTS) 
technology, accelerate the current timetable for reducing the survey 
backlog, and expand and develop the coverage of electronic navigational 
charts. AAPA believes that this cooperation will lead to better 
services for the maritime industry.
Conclusion
    Overall, the goal of the Hydrographic Services Improvement Act of 
1998 was to focus attention on improving the infrastructure of the 
nation's navigation systems. The Act was to provide the framework for 
catching up with the survey backlog and to modernize navigation 
operations. Though it authorized significant funding to improve NOAA's 
navigation services, the Administration has never requested, nor has 
Congress appropriated, these higher funding levels.
    The bill was a positive first step towards raising awareness for 
navigation safety; however, we have a long way to go. Safety programs 
such as PORTS should not be an option for those who can afford it but a 
national priority funded by the Federal government. Without these 
essential programs that provide valuable information to mariners, there 
is an increased probability that maritime accidents, taking a 
substantial toll on the industry and the environment, will occur. It 
must be a Federal priority to maintain our nation's waterways, to 
provide the necessary tools to allow mariners to do their job, and to 
facilitate the commerce that provides significant economic benefits to 
our nation.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Hamons. We will hopefully, 
what with our efforts and your expertise, make sure we take 
that vital next step.
    I also want to thank Mr. Hamons. We have worked for a 
number of years now on some very, very controversial issues in 
the State of Maryland, often at opposite ends of the opinion 
scale. Mr. Hamons has always showed himself to be highly 
professional, and as a result of that, we have been able to 
retain a very fluid, workable, professional relationship by 
which people that we both represent benefit.
    Thank you very much.
    Mr. Hamons. Thank you, sir.
    Mr. Gilchrest. And Mike Watson, somebody else we worked 
with in the State of Maryland for a number of years.
    Mike, welcome this morning.
    I would like to also say that Mike has always been a 
professional person in his career and in his profession, and 
has been a benefit to the people that he represents and has 
also been a benefit to us with the information you provide us 
with.
    You may begin, Mike.

  STATEMENT OF CAPTAIN MICHAEL R. WATSON, PRSEIDENT, AMERICAN 
                      PILOTS' ASSOCIATION

    Mr. Watson. Thank you very much, Mr. Chairman. To you and 
Mr. Underwood, I can only say, I and all the pilots in the 
United States echo your thoughts and concerns; and we are proud 
to have your leadership here and the leadership of Congress to 
represent our country in these terrible times.
    Members of my group this morning, we see the TV going in 
New York, going all the time. The Port of New York is closed, 
but the American Pilots' Association operation is running 24 
hours a day to help the rescue efforts up there.
    So, Mr. Chairman, Committee, my name is Michael Watson. I 
am President of the association of--excuse me, of the American 
Pilots' Association. I work in that category with you, Mr. 
Chairman, which represents all of the licensed State pilots 
throughout the United States.
    We have had opening remarks that 95 percent of the commerce 
coming to and from the United States is coming by way of 
maritime activity, of that 95 percent, 95 percent of those 
ships are daily manned by members of the American Pilots' 
Association representing not only the Federal interests, but 
the State interests for each and every port.
    The Hydrographic Services Improvement Act of 1998 was an 
important first step in providing an effective mechanism for 
NOAA to modernize its navigation services. The act authorized 
urgently needed levels of funding and enhanced NOAA's ability 
to leverage its limited resources by the increased use of 
contracting. The act also encouraged further development and 
implementation of NOAA's Physical Oceanographic Real Time 
System known as PORTS, which provides critical real-time tide 
and current information.
    Today I salute you for your vision and offer a pilot's-eye 
view of the act where it matters most from the bridge of the 
large commercial ships navigating our Nation's waterways. As I 
am talking, APA members are piloting loaded tankers, cruise 
ships, coal colliers, bulkers, car carriers, LNG ships, product 
carriers, container ships, which all are moving our Nation's 
commerce.
    Some of them are on unfamiliar ships. Some are in 
restricted visibility. Most are handling ships drafting within 
a few feet of the bottom and with similar air draft clearances 
under bridge spans. Virtually all are aboard foreign vessels 
with captains and crew who are, most likely, struggling to 
communicate in the English language. Some are threading their 
way through fishing fleets, others are keeping a sharp eye on 
the high-speed ferries. And if today, we were on a weekend in 
normal times, more than a few pilots of these deep-draft ships 
would be threading their way through many sailboats and 
recreational boaters.
    The Hydrographic Services Improvement Act of 1998 
established authorized levels of funding that would enable NOAA 
to make significant improvements to the safety of navigation in 
U.S. waters. Unfortunately, the amount of funding appropriated 
has been substantially less than the authorized levels. Most 
confounding has been the administration's failure to request in 
its budgets the funding levels authorized under the 
Hydrographic Services Improvement Act. A quick review of the 
funding history for NOAA's PORTS system provides an excellent 
illustration.
    The Hydrographic Services Improvement Act of 1998 
authorized 22.5 million for NOAA's tides and currents program 
for each of fiscal years 1999 through 2001. Of these amounts, 
11.5 million was authorized for each fiscal year to implement 
and operate a national quality control system for real-time 
tide and current programs and to maintain the national tide 
network and to design and install real-time tide and current 
data measurement systems.
    During this 3-year time period, 34.5 million was 
specifically authorized for NOAA's real-time tide and current 
program. Despite overwhelming support for the program from the 
maritime industry, however, the administration requested only 
2.8 million in additional funding for PORTS over the entire 3-
year period.
    Within the Department of Commerce, NOAA carries the 
responsibility for providing the essential hydrographic 
services that facilitate the safe and efficient movement of our 
waterborne commerce and protect the marine environment. This is 
a considerable undertaking. These programs--offices within the 
National Service who shoulder this responsibility have a 
remarkable record of achievement given their limited funding 
and resources. Despite the critical importance of these promote 
safe navigation programs to our Nation, these programs 
currently receive a paltry 3.5 percent of NOAA's budget.
    The American Pilots' Association has a formal partnership 
with NOAA, as well as the United States Coast Guard. My staff 
and I have met personally with senior NOAA management and 
expressed our concern that the agency must elevate the priority 
of its promote safe navigation programs.
    We look forward to meeting with the Secretary of Commerce 
to convey this very same message.
    Mr. Chairman, we hope that we can also count on the 
Subcommittee's continued leadership on this subject. The 
challenges facing our Nation's marine transportation system 
demand a significantly greater commitment to funding NOAA's 
promote safe navigation programs.
    I should also point out that the promote safe navigation 
programs are extremely cost-effective. If adequately funded and 
aggressively implemented, they have the potential to reduce the 
need for or minimize the extent of many dredging projects. The 
resulting net financial savings and the increased protection of 
the environment could be extremely important.
    Finally, Mr. Chairman, I would like to offer some specific 
comments on NOAA's surveying activities. The American Pilots' 
Association supports the responsible use of contract surveying, 
which has been effective in reducing the surveying backlog. 
However, contracting is a means to an end, not in itself the 
measure of success. Surveying, whether contract or in-house, 
should be undertaken first in those priority areas NOAA has 
appropriately identified as critical in their national charting 
plan.
    Further, public money spent on contract surveying, should 
expedite NOAA's completion of its electronic navigation chart 
database, not emasculate it by diverting already scarce 
funding. The APA recommends amending the act to require NOAA to 
provide regular periodic surveying and a rapid response 
surveying capability for our country's major ports and harbors 
and their approaches. These are the critical navigation areas 
where our country's commerce is flowing, where the channel and 
shoreline is consistently changing by dredging and port 
infrastructure development, where recreational and other 
competing vessel traffic is the most concentrated in the areas 
of greatest populations. NOAA's Office of Coast Survey 
established a Navigation Services Division comprised of 
regional navigation managers to enhance its rapid response 
capabilities and focus on these critical areas. This enhanced 
rapid response capability has proven invaluable to pilots.
    The APA is aware of numerous examples where NOAA has drawn 
on its in-house expertise and resources to respond to pilots' 
request for emergency hydrographic surveys. These are field 
investigations, have located submerged barges, wrecks, 
shoaling, underwater pipes, fish havens and artificial reefs in 
pilotage waters. Sadly, the Navigation Services Division has 
received funding for only two boats to cover our entire 
country.
    We should have this critical capability in every major 
port. A good next step would be to provide a rapid-response 
boat for each regional navigation manager. An APA member pilot 
is frequently the only United States citizen aboard ocean-going 
ships entering and leaving our ports and harbors.
    Pilots need the best available navigation information and 
tools. Modernizing and delivering NOAA's hydrographic products 
and services will provide the greatest return for the public's 
money in facilitating our maritime commerce and protecting our 
marine environment.
    I hope the Subcommittee will continue to meet these 
challenges by leading Congress to reauthorize the Hydrographic 
Services Improvement Act. Thank you very much, sir
    [The prepared statement of Mr. Watson follows:]

  Statement of Captain Michael R. Watson, President, American Pilots' 
                              Association

    Good morning Mr. Chairman and Members of the Subcommittee. I am 
Captain Michael Watson, President of the American Pilots' Association. 
The American Pilots' Association is the national trade association of 
professional maritime pilots. Its membership is made up of 56 groups of 
state-licensed pilots, representing virtually all state pilots in the 
country, as well as the three groups of United States-registered pilots 
operating in the Great Lakes. APA members pilot over 95 percent of all 
ocean-going vessels moving in United States waters. I appreciate this 
opportunity to testify and express the American Pilots' Association's 
support for the reauthorization of the Hydrographic Services 
Improvement Act.
    Mr. Chairman, you have asked for our views on whether the Act has 
provided an effective mechanism for NOAA to modernize its navigation 
services program; for our recommended changes to the Act; and our 
thoughts on the development and implementation of Electronic Navigation 
Charts and Physical Oceanographic Real Time (PORTS) Systems. I 
understand that you are also interested to hear how NOAA's programs 
relate to the Marine Transportation System initiative.
    NOAA's promote safe navigation programs are essential to our Marine 
Transportation System. NOAA's hydrographic products and services are 
critical government services that facilitate the safe movement of our 
nation's waterborne commerce and protect our marine environment. Over 
ninety-five percent of our nation's international commerce moves by 
water. This commerce is expected to double and perhaps triple within 
the next twenty years. The report to Congress on the U.S. Marine 
Transportation System <SUP>1</SUP> observed that the greatest safety 
concern voiced at the Regional Listening Sessions and the November 1998 
MTS National Conference related to the availability of timely, 
accurate, and reliable navigation information. This May, as one of its 
first resolutions, the Marine Transportation System National Advisory 
Council, of which I am a member, recommended to the Secretary of 
Transportation that he work with the Secretary of Commerce to support 
the further implementation of NOAA's PORTS program.
---------------------------------------------------------------------------
    \1\ September 1999 Report to Congress, ``An Assessment of the U.S. 
Maritime Transportation System,'' pg. 84.
---------------------------------------------------------------------------
    In 1998, this Subcommittee had the vision to draft and facilitate 
the enactment of the Hydrographic Services Improvement Act. The 
Hydrographic Services Improvement Act of 1998 was an important first 
step in providing an effective mechanism for NOAA to modernize its 
navigation services. The Act authorized urgently needed levels of 
funding and enhanced NOAA's ability to leverage its limited resources 
by the increased use of contracting. The Act also encouraged further 
development and implementation of NOAA's Physical Oceanographic Real-
Time (PORTS) System, which provides critical real-time tide and current 
information. Today, I salute you for your vision and offer a pilot's-
eye view of the Act where it matters--from the bridge of large 
commercial ships navigating our nation's waterways.
    As I am talking, APA members are piloting loaded tankers, cruise 
ships, coal colliers, bulkers, car carriers, LNG ships, product 
carriers, and containerships, moving our nation's commerce. Some of 
them are on unfamiliar ships, some are in restricted visibility, most 
are handling ships drafting within a few feet of the bottom and with 
similar air gap clearances under bridge spans. . . virtually all are 
aboard foreign vessels with Captains and crew who are most likely 
struggling to communicate in English. Some are threading their way 
through fishing fleets, others are keeping a sharp eye on high-speed 
ferries, and, if today were on a weekend, more than a few pilots on 
these deep-draft vessels would be busy skirting sailing regattas.
    NOAA's hydrographic products and services--nautical charts, tide, 
current and weather information--are essential decision-support tools 
for safe navigation. Pilots use these tools to safely navigate ocean-
going ships through our nation's waterways. With the evolution in ship 
size, there is increasingly little margin for error. The stakes are 
high. The risk to life, commerce and the environment is real. 
Accelerating the development and delivery of NOAA's hydrographic 
products and services is critical to our ability to move our country's 
increasing waterborne commerce safely and efficiently.
    From our perspective, NOAA is making headway in modernizing and 
delivering its navigation services. However, we are concerned because 
the modernization is not on pace to meet the imminent challenges facing 
our nation's marine transportation system. A good example is NOAA's 
effort to build our national database for electronic navigational 
charts or ENCs. In addition to leveraging its in-house surveying 
capability through contracting, NOAA has entered into data sharing 
initiatives with the Coast Guard and the Army Corps of Engineers to 
facilitate the production of ENCs. This summer, NOAA began making 
available provisional ENCs on the internet. This is a giant step in 
making the ENC data available to the public and will enable the market 
to develop electronic charting systems for mariners. However, despite 
this effective program management, ENC production is falling behind 
schedule due to a lack of sufficient funding. The funding for NOAA's 
promote safe navigation programs needs to be increased.
    The Hydrographic Services Improvement Act of 1998 authorized levels 
of funding that would have enabled NOAA to make significant 
improvements to the safety of navigation in U.S. waters. Unfortunately, 
the amount of funding appropriated has been substantially less than the 
authorized levels. Most confounding has been the Administration's 
failure to request in its budgets the funding levels authorized under 
the Hydrographic Services Improvement Act. A quick review of the 
funding history for NOAA's PORTS program provides an excellent 
illustration.
    The Hydrographic Services Improvement Act of 1998 authorized $22.5 
million for NOAA's tides and currents programs for each of fiscal years 
1999 through 2001. Of these amounts, $11.5 million was authorized for 
each fiscal year to implement and operate a national quality control 
system for real-time tide and current programs and to maintain the 
national tide network, and to design and install real-time tide and 
current data measurement systems. During this three-year time period, 
$34.5 million was specifically authorized for NOAA's real-time tide and 
current program. Despite overwhelming support for the program from the 
maritime industry, the Administration requested only $2.8 million in 
additional funding for PORTS over the entire three-year period.
    After an emergency reprogramming of NOAA funds--robbing Peter to 
pay Paul--to keep the highly touted PORTS program alive, the $2.8 
million was finally appropriated this fiscal year. Unfortunately, a 
large percentage of the money was consumed by Agency overhead, federal 
salary increases, and increased operating costs. The remaining funds 
have proven woefully inadequate to deliver on the automation of CORMS--
the quality control system, modernization of the instrument testing 
facility, OSTEP, and to catch up on the deferred maintenance of the 
national water-level observation network as promised. In fact, most of 
the Field Operations Division personnel--those who perform the 
maintenance and repair work--have been travel restricted due to a lack 
of funds. Astonishingly, the Administration's current budget request 
for fiscal year 2002 requests zero additional dollars for this critical 
navigation program.
    Within the Department of Commerce, NOAA carries the responsibility 
for providing the critical hydrographic services that facilitate the 
safe and efficient movement of our waterborne commerce and protect the 
marine environment. This is a considerable undertaking. Those program 
offices within the National Ocean Service who shoulder this 
responsibility have a remarkable record of achievement given their 
limited funding and resources. Despite the critical importance of these 
promote safe navigation programs to our nation, these programs 
currently receive a paltry 3.5% of the total NOAA budget.
    The American Pilots' Association has a formal partnership with 
NOAA. My staff and I have met personally with senior NOAA management 
and expressed our concern that the Agency must elevate the priority of 
its promote safe navigation programs. We look forward to meeting with 
the Secretary of Commerce. Mr. Chairman, we hope that we can count on 
this Subcommittee's continued leadership. The challenges facing our 
nation's marine transportation system demand a significantly greater 
commitment to funding NOAA's promote safe navigation programs.
    While we all work to increase funding for navigation services, NOAA 
must continue to make best use of the funding it receives. It is 
imperative that NOAA be empowered to allocate its resources to achieve 
the greatest public good. In this instance, the greatest public good is 
for NOAA to develop and deliver timely, accurate and reliable 
hydrographic products and services to the mariner. In the process, we 
must never confuse a means to an end with the ultimate purpose. As an 
example, one of the critical needs that has been identified is the 
backlog of hydrographic surveying. The primary reason it is important 
to survey is to make sure that there are no uncharted hazards to 
navigation. NOAA is responsible for surveying over 3 million square 
miles of the U.S. exclusive economic zone. Clearly, not all survey 
miles are equal and we should be spending the public's money to 
complete the critical areas first.
    The increased use of contracting has been effective in reducing the 
backlog. The American Pilots' Association supports continuing the 
responsible use of contract surveying. However, contracting is a means 
to an end, not in itself the measure of success. Surveying, whether 
contract or in-house, should be undertaken first in those priority 
areas NOAA has appropriately identified as critical in their national 
charting plan. Further, public money spent on contract surveying should 
expedite NOAA's completion of its ENC database, not emasculate it by 
diverting already scarce funding.
    The APA recommends amending the Act to require NOAA to provide 
regular periodic surveying and a rapid response surveying capability 
for our country's major ports and harbors and their approaches. These 
are the critical navigation areas where our country's commerce is 
flowing, where the channel and shoreline is constantly changing by 
dredging and port infrastructure development, where recreational and 
other competing vessel traffic is the most concentrated, and the areas 
of greatest population.
    NOAA's Office of Coast Survey has established a Navigation Services 
Division comprised of regional Navigation Managers to enhance its rapid 
response capabilities and focus on these critical issues. NOAA's 
enhanced rapid response capability has proven invaluable to pilots. The 
APA is aware of numerous examples where NOAA has drawn on its in-house 
expertise and resources to respond to pilots' requests for emergency 
hydrographic surveys. An emergency survey may be required to reopen a 
port following a hurricane or other severe storm, to investigate an 
unexplained or apparent chart discrepancy or sounding. These NOAA's 
field investigations have located submerged barges, wrecks, shoaling, 
underwater pipes, fish havens and artificial reefs in pilotage waters. 
Sadly, the Navigation Services Division has received funding for only 
two boats to cover our entire country. We should have this critical 
capability in every major port. A good next step would be to provide a 
rapid response boat for each regional Navigation Manager.
    An APA member pilot is frequently the only United States citizen 
aboard ocean-going ships entering and leaving our ports and harbors. 
Pilots need the best available navigation information and tools. 
Modernizing and delivering NOAA's hydrographic products and services 
will provide the greatest return for the public's money in facilitating 
our maritime commerce and protecting our marine environment. I hope you 
will stay the course to meet these challenges by leading Congress to 
reauthorize the Hydrographic Services Improvement Act.
    Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you very much, Mr. Watson.
    I guess I will start with you, Mike, and what you said near 
the end of your testimony. And this has to do with Mr. Allen's 
proposal that NOAA contract out all of its hydrographic 
activities or data collection. I think I am saying that 
correctly.
    Mike, it seems that you said the contracting-out might 
enhance NOAA's capability. But are you saying that--would you 
disagree with Mr. Allen that all those data collecting surveys 
should not be contracted out?
    Mr. Watson. Yes. I would disagree with that, sir. And I can 
expand on that a little bit.
    Hydrographic surveys and charting are, for the mariner, all 
mariners, probably the most important aspect. You have to know 
where you are, where you are going and where not to go. Every 
country in the world has its own hydrographic survey 
department, and they are the responsible entity of that 
government to protect not only their own citizens, but all 
mariners coming into the waters.
    We saw with the QE2 incident, which Mr. Gudes remarked 
upon, the need for accurate surveys. I happened to be in 
contact with the president of that pilot group the morning that 
happened. I must commend NOAA. They did have a vessel on that 
site, I would say, within 10 hours. It was luck that it was up 
there, but they had the capability of finding out the problem.
    NOAA and the United States Government, in my particular 
opinion, are like our military. You cannot charter everything 
out. You have to have a corps of responsible, trained people 
and equipment to ascertain and certify that this is accurate 
data. With that, I would be opposed to contracting all of this 
work out. I think it has a role to play in the right area, but 
I think NOAA still needs to have a strong arm in it and have a 
rapid response team to do this.
    Mr. Gilchrest. Thank you.
    Mr. Allen, can you comment on that?
    Mr. Allen. Yes, Mr. Chairman. I wouldn't disagree with 
anything Captain Watson said, other than if we are talking 
about data collection, I think there is certainly a role for 
NOAA to play, a very big and important role for NOAA to play.
    But in the area of data collection, which is where most of 
our interest is, I would say that we are just as committed--the 
private sector is just as committed as the government and has a 
track record of doing this with other agencies to do data 
collection and be able to provide the level of quality that the 
government is currently--or more so than the government is 
currently providing.
    Captain Watson mentioned the Department of Defense and 
military. We currently do this for the military. We do data 
collection for them in a classified environment in which we are 
actually on the front lines providing data to the warfighter.
    It is not an unusual scenario for us to potentially 
understand how important this data is; and from a data 
collection perspective, we have the motivation and the market 
forces to innovate. A lot of the vision that has come out of 
NOAA recently has come from this Committee and not necessarily 
from the agency itself. And, you know, my perception from the 
private industry is, as a firm, really kind of sees NOAA's 
budgetary process as status quo, as opposed to looking for new 
ways to get things done and improve electronic charting.
    Mr. Gilchrest. Ms. Brohl, do you want to comment on that?
    Ms. Brohl. I think that we are concerned primarily with the 
movement of a vessel from point A to point B safely; and 
frankly, we rely heavily on the pilots. I commend you for 
inviting the pilots here. They are really the number one 
defense and best expertise for actually asking what their needs 
on the bridge are.
    In some respects, I have to say that as long as we have 
updated information, it may not matter who does it. But I have 
to also agree with Captain Watson that NOAA, as a government 
entity, has been extraordinarily responsible about certain 
things that we need. In terms of the accumulation of the data, 
whether that accumulation needs a security oversight to it--
there are instances where NOAA vessels were on site. For the 
airline that went down off of Long Island, where there were 
concerns about that, I seem to recall that NOAA was there right 
away. So there is a security aspect to NOAA's mandate, as well, 
which is important to having some equipment of their own and 
ability to do that. But NOAA, as a government agency whose 
response is to respond to the needs of the stakeholder, has 
been so tremendous.
    I particularly represent the Great Lakes Shipping 
Association. In the Great Lakes, we have had a lot of low water 
problems. We have a lot more critical areas and the need for 
real-time information. NOAA, out of Silver Spring, has been 
responsive to our needs to provide vector charts when we needed 
them. And I don't think those are things--of course, we are 
talking about the accumulation of data, but they definitely 
need the in-house expertise; and there have been times when, as 
Captain Watson said, you needed someone to be out there.
    I can't answer the question, whether a contractor who is 
under contract to accumulate data under a certain contract, you 
can call them and say, Oh, would you go off that contract and 
do something else now because we have a critical need, I can't 
answer whether that is doable with the agreements that they 
have with the private contracting.
    Mr. Gilchrest. Mr. Hamons.
    Mr. Hamons. Well, I agree with the sentiments that Captain 
Watson expressed, and I understand why he said that. My concern 
simply would be this. The quality of the data depends upon the 
standards that are being enforced. And it doesn't matter to me 
too much where the data comes from, as long as it meets that 
quality and those standards. That would be a critical NOAA 
responsibility, and they must be funded to maintain that level 
of standard and that quality.
    If the system--if NOAA drives the system, we are okay. If 
the system demand reaches a point that it is driving NOAA, that 
is where you get into trouble unless you can enforce the 
quality of the standards. So NOAA must be funded to that level 
so they can enforce the quality of the data that is coming in. 
If that happens, then I am not worried.
    Mr. Gilchrest. Thank you very much.
    Mr. Underwood?
    Mr. Underwood. Thank you very much, Mr. Chairman, and thank 
you very much for your testimony and, in particular, Captain 
Watson, I found your testimony very sobering and very important 
to understand the constellation of this.
    We have discussed the--I guess we are trying to understand 
the general continuum of what is appropriate work to outsource 
in the private sector and what kind of capability we want to 
continue to maintain and develop and cultivate within NOAA. I 
understand that market-driven forces helps improve cost 
efficiency. But also market-driven forces sometimes perhaps in 
issues of safety in issues that we are addressing here, public 
safety and the safety of our maritime industry, you know, it 
has to respond to a different set of standards. It can't 
respond simply to market-driven issues.
    Mr. Allen, I know you represent a number of people 
interested in securing these contracts. And yet, as I 
understand it, NOAA only started contracting out this work 
sometime in the mid-90's. So what kind of work are the firms 
that you represent generally involved in prior to that and what 
kind of activities were they involved in?
    Mr. Allen. Mr. Underwood, a lot of work that we are talking 
about is also similarly contracted out by the Corps of 
Engineers around the country. And we have been doing 
hydrographic surveying--firms within our organization have been 
doing hydrographic surveying for 20, 30 years for the Corps of 
Engineers and throughout the waterways, and have had a very 
successful partnership with the Corps. And we are looking for 
that partnership with NOAA. And with the contracting out that 
has happened to date, there has been much progress. We would 
like to see that progress continue and improve.
    Mr. Underwood. I would have to say, Mr. Allen, that your 
responses to the question by Mr. Gilchrest, and my own, 
certainly are a little bit more moderate in tone than your 
statement that has been submitted to the record. So I just 
wanted to make a note of that. And it is important we 
understand exactly where we are going with this issue.
    You know, contracting out is not an objective in and of 
itself. It can't be the main objective. There is a higher 
purpose for NOAA to exist. There is a higher purpose for the 
oversight that is provided for this. Otherwise, we would be 
contracting out Committee work, and that would be pretty scary.
    So there is a defined purpose and a higher purpose here. 
And so, I guess that was the--I guess the urgency in trying to 
understand exactly what is that core competence and how do we 
sustain that, because it is not only sustaining the expertise 
and the capability and then, in turn, having the ability to 
provide adequate oversight, which is not--is always an iffy 
issue in defense activities that have been contracted out, 
because there has been the tendency to see this as a way to 
save the government money; and as a consequence, the level of 
oversight has decreased over time rather than has increased.
    And then you get into a whole range of other issues. And of 
course, ultimately, it is NOAA that is responsible--it is the 
government that is responsible. And so the issues of liability 
loom very large in this as well as just sustaining and 
maintaining a sense of security and safety for the public as 
well as for people involved in maritime industries.
    I have no real questions other than that. I guess I think 
we are at least trying to find that appropriate mix. And in 
that sense, I think we will take into account--at least I will 
take into account--the day-to-day users of the information of 
hydrographic charting in that sense. I will take their comments 
with a little--put more credence into their comments.
    Mr. Gilchrest. Thank you, Mr. Underwood. Just a couple of 
follow-up questions.
    Two things, Mike. You don't have to comment on the first 
one. It was interesting, you said we could dredge less if we 
had a better hydrographic system in place.
    I thought that was encouraging and provided us with 
incentive to the get this thing in place immediately, for the 
Chesapeake Bay region. The other--Mike, would you agree with 
Mr. Gudes in his--Mr. Gudes talked about this--these priority 
areas, the critical priority areas along our coast. Would you 
agree with his selection of the critical priority areas?
    Mr. Watson. Um--.
    Mr. Gilchrest. I'm not sure if you saw the slide that he--.
    Mr. Watson. I did not see the slides, no. Having said that, 
the pilots from around the country have worked closely, very 
closely, with NOAA to establish the critical areas. In your 
district in the Chesapeake Bay, before I came to Washington, we 
have worked for years with NOAA, and that is why I say 
appropriate use of funding and management is imperative, 
because we sat down with NOAA. We have our 50-foot channel, and 
we put that channel together, the original Army Corps of 
Engineers funding and design criteria for that channel, and I 
worked with Mr. Hamons. It was about 30 percent more than was 
needed by quality professionals, working in a redesign channel. 
And the Maryland pilots--.
    Mr. Gilchrest. I am sorry, Mike. The redesign channel was 
30 percent more than what?
    Mr. Watson. No. We redesigned the Federal Army Corps of 
Engineers channel. We cut it by about 30 percent--.
    Mr. Gilchrest. Oh, I see.
    Mr. Watson. --of necessary dredging and channel design. 
Consequently, 33 percent less mud was dumped in the Chesapeake 
Bay; $110 million were saved for the taxpayers on that one 
particular project. That would not--.
    Mr. Gilchrest. What project was that?
    Mr. Watson. The 50-foot channel project, that was completed 
back in the late 1980's. Without the cooperation of NOAA and 
the Coast Guard, we would not have been able to do that because 
it required better knowledge of current direction and water 
level measurement, which is a great variable. You can't just go 
on predicted tides. As you know, a front comes through, the 
Chesapeake Bay goes down 1 meter. So that cooperation and that 
ability at that time allowed that project to go ahead and save 
environmental concerns as well as financial interests. If these 
projects are no longer funded--and the Maryland pilots have 
worked for 10 years with NOAA as a test base to develop the 
port system. I am very proud of that. And consequently, 
Maryland will come in with a very good package. But, yes, if it 
is used throughout the country, the professionals that are 
moving the big ships that require the dredging and the real 
concerns can more professionally ascertain the channel design 
and what is needed to protect the environment.
    Mr. Gilchrest. Thank you.
    Mr. Watson. I might make one other comment about the need 
for the accuracy of this data, and, again, I can refer to your 
district. The data is so old, and it needs to be updated, that 
the technology today of GPS and DGPS and navigation systems of 
which we have developed is so much more accurate than the 
current paper charts. When we moved the Constellation for her 
repairs from the Inner Harbor to the dry docks, if you 
superimpose the true position of the vessel as compared with 
the chart, it would have been about a hundred feet outside of 
the dry dock. So vessels operating in restricted visibility 
with high-tech means of navigation, these ECDIS systems are no 
better than the database and the chart that they have. And as a 
matter of fact, it can lead people into terrible situations if 
they are not aware of that.
    Mr. Gilchrest. Thank you, Mike.
    Apparently we have a vote on. I just have just some brief 
questions for some of the witnesses.
    Ms. Brohl, you made a comment about a subscription program. 
Could you explain that briefly?
    Ms. Brohl. Sir, I don't know that I can explain it all that 
well. It is something I have only really heard about. NAMO had 
been working on the print on demand for quite a long time with 
NOAA to get them moving with the ability to get updated prints 
charts, paper charts. There is a lot of data that is currently 
in the computers at NOAA that is just not getting onto a chart. 
The electronic is easier because once you have it in the 
database, you can access that.
    But we were frustrated. There was a while there where the 
issue of printing a chart at NOAA got mixed up into the 
aeronautical chart printing. Where was that going to go? Is 
that going to go to defense or go back to DOT? And it really 
held off any of our ability to try to get a more readily 
accessible real time paper chart. I know that sounds strange, 
because the minute the paper chart is updated it is no longer 
real time.
    But I understand that for NOAA now, after having gone 
through a number of scenarios with providing more real time 
paper charts, that a subscription service is very simple. It is 
merely that you have an interest in one area, Maryland or 
wherever--.
    Mr. Gilchrest. So there is not one in place now.
    Ms. Brohl. No. They hoped to get that going. We would like 
to see it accelerate, come up with something where we are not 
waiting around to find out.
    Mr. Gilchrest. Is that something that you are discussing 
with NOAA, and NOAA has--.
    Ms. Brohl. I only recently became aware of it. We have not 
had any meaningful discussions with NOAA about it, and we 
intend to do that.
    Mr. Gilchrest. All right. We will follow up on that.
    Ms. Brohl. Thank you.
    Mr. Gilchrest. I had a couple more questions, but I think I 
can--Frank, for example, I would like to talk to you about the 
PORTS system and the cost-sharing process and all those things, 
but I will give you a call or visit Baltimore.
    Mr. Watson, Mr. Allen, Ms. Brohl, Mr. Hamons, thank you all 
very much for coming today under these trying circumstances. 
And we appreciate the information that you exchanged with us 
today.
    The hearing is adjourned.
    [Whereupon, at 12:13 p.m., the Subcommittee was adjourned.]
    [The prepared statement of Mr. Saade follows:]
    [GRAPHIC] [TIFF OMITTED] T5129.005
    
    [GRAPHIC] [TIFF OMITTED] T5129.006
    
    [GRAPHIC] [TIFF OMITTED] T5129.007
    
    [GRAPHIC] [TIFF OMITTED] T5129.008
    
    [GRAPHIC] [TIFF OMITTED] T5129.009
    
    [GRAPHIC] [TIFF OMITTED] T5129.010
    
                                   - 

</pre></body></html>
